<html>
<title> - THE INTERNATIONAL ROLE OF THE UNITED STATES COAST GUARD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








        THE INTERNATIONAL ROLE OF THE UNITED STATES COAST GUARD

=======================================================================

                                (116-58)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
42-634 PDF               WASHINGTON : 2021

























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

 SEAN PATRICK MALONEY, New York, 
               Chair
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DON YOUNG, Alaska                    STACEY E. PLASKETT, Virgin Islands
RANDY K. WEBER, Sr., Texas           JOHN GARAMENDI, California
BRIAN J. MAST, Florida               ALAN S. LOWENTHAL, California
MIKE GALLAGHER, Wisconsin            ANTHONY G. BROWN, Maryland
CAROL D. MILLER, West Virginia       CHRIS PAPPAS, New Hampshire, Vice 
SAM GRAVES, Missouri (Ex Officio)    Chair
                                     CONOR LAMB, Pennsylvania
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)
























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Sean Patrick Maloney, a Representative in Congress from the 
  State of New York, and Chairman, Subcommittee on Coast Guard 
  and Maritime Transportation:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, and Ranking Member, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    53

                               WITNESSES
                                Panel 1

Vice Admiral Daniel B. Abel, Deputy Commandant for Operations, 
  U.S. Coast Guard:

    Oral statement...............................................     4
    Prepared statement...........................................     6

                                Panel 2

Hon. David Balton, Senior Fellow, Polar Institute, Woodrow Wilson 
  International Center for Scholars:

    Oral statement...............................................    26
    Prepared statement...........................................    27
Stephen E. Flynn, Ph.D., Founding Director, Global Resilience 
  Institute, Northeastern University:

    Oral statement...............................................    31
    Prepared statement...........................................    33
Amy E. Searight, Ph.D., Senior Adviser and Director, Southeast 
  Asia Program, Center for Strategic and International Studies:

    Oral statement...............................................    38
    Prepared statement...........................................    40

                                APPENDIX

Questions to Vice Admiral Daniel B. Abel, Deputy Commandant for 
  Operations, U.S. Coast Guard, from:

    Hon. Sean Patrick Maloney....................................    55
    Hon. Bob Gibbs...............................................    55
    Hon. Rick Larsen.............................................    56

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             March 5, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Coast Guard and Maritime 
Transportation
    FROM:  LStaff, Subcommittee on Coast Guard and Maritime 
Transportation
    RE:      LSubcommittee Hearing on ``The International Role 
of the United States Coast Guard''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Coast Guard and Maritime Transportation 
will hold a hearing entitled ``The International Role of the 
United States Coast Guard'' on Tuesday, March 10, 2020, at 
10:00 a.m., in 2167 Rayburn House Office Building to examine 
the worldwide presence of the Coast Guard. The Subcommittee 
will hear testimony from the U.S. Coast Guard (Coast Guard or 
Service) and experts on international relations.

                               BACKGROUND

    On August 4, 1790, President George Washington signed the 
Tariff Act authorizing the Revenue Cutter Service and the 
construction of ten vessels, referred to as ``cutters.'' Those 
cutters were intended to enforce the federal tariff and trade 
laws and to prevent smuggling.\1\ In 1915, the Revenue Cutter 
Service merged with the U.S. Life-Saving Service and was 
renamed the Coast Guard, making it the only maritime service 
dedicated to saving life at sea and enforcing the Nation's 
maritime laws. In 1939, President Franklin Roosevelt ordered 
the transfer of the Lighthouse Service to the Coast Guard and 
officially assigned it the responsibility of maritime 
navigation. In 1946, the Commerce Department transferred the 
Bureau of Marine Inspection and Navigation, which oversaw 
merchant marine licensing and merchant vessel safety, to the 
Coast Guard. In 1967, the Coast Guard was transferred to the 
Department of Transportation (DOT) where it resided until 2003 
when it was transferred to the Department of Homeland Security 
(DHS).
---------------------------------------------------------------------------
    \1\ United States Coast Guard. ``The Coast Guard: America's Oldest 
Maritime Defenders.''
---------------------------------------------------------------------------
    Under Section 102 of Title 14, United States Code, the 
Coast Guard has primary responsibility to enforce or assist in 
the enforcement of all applicable federal laws on, under, and 
over the high seas and waters subject to the jurisdiction of 
the United States; to ensure safety of life and property at 
sea; to carry out domestic and international icebreaking 
activities; and, as one of the five armed forces of the United 
States, to maintain defense readiness to operate as a 
specialized service in the Navy upon the declaration of war or 
when the President directs.
    The law enforcement and peacetime duties of the Coast Guard 
include the inspection of commercial vessels, the direction and 
maintenance of aids to navigation, the maintenance of an 
extensive network of search-and-rescue stations, international 
ice patrol, collecting data for the National Weather Service, 
the protection of marine life and the ocean environment, and 
the interdiction of illegal drugs and migrants.
    As one of the Nation's five armed forces, the Coast Guard 
has assisted in the defense of our nation during times of war 
and has played a crucial international role in every major 
American military conflict. During the War of 1812, the Revenue 
Cutter Service executed the first capture of a British vessel. 
In World War I, while the Service protected domestic shipping 
and safeguarded the waterfront, six Coast Guard cutters 
escorted hundreds of naval vessels between Gibraltar and the 
British Isles as well as patrolled the Mediterranean Sea. 
During the Vietnam War, the Service sent 26 cutters and some 
8,000 servicemembers that inspected vessels for contraband, 
destroyed enemy craft, set up and operated a long-range 
navigation system, and installed and maintained buoys.

THE INTERNATIONAL ROLE OF THE COAST GUARD

    Today's Coast Guard actively supports military commitments 
on all seven continents. While previous foreign missions were 
typically related to specific wars or military engagements, the 
Coast Guard's international presence is primarily focused on 
non-military capacity building and strategic partnerships. 
Since the Service is involved in numerous missions that do not 
have a direct defense link, the Coast Guard is uniquely 
situated to advance American interests internationally. More 
than 2,000 servicemembers are deployed annually around the 
globe to support Department of Defense Combatant Commanders, to 
promote peace, fortify alliances, uphold customary maritime 
norms and the rule of law, and challenge threats far from U.S. 
soil. In addition, the Coast Guard has 11 cutters, two maritime 
patrol aircraft, five helicopters, two specialized boarding 
teams, and a Port Security Team supporting international 
defense operations daily.\2\
---------------------------------------------------------------------------
    \2\ Admiral Karl L. Schultz. ``Testimony of Admiral Karl L. 
Schultz, Commandant, U.S. Coast Guard on ``The Coast Guard's Fiscal 
Year 2020 Budget Request'' Before the House Homeland Security Committee 
Subcommittee on Transportation and Maritime Security.'' House Committee 
on Homeland Security. April 9, 2019.
---------------------------------------------------------------------------

ARCTIC

    The Arctic provides a prime example of the importance of an 
international Coast Guard presence, its operational 
limitations, as well as underscores the indelible role the 
Coast Guard fills in facilitating international cooperation and 
partnerships among Arctic states.
    With the ongoing melting of sea ice and the opening of new 
sea passages in the Artic, the Coast Guard recognized the 
strategic importance of the region by implementing Operation 
Arctic Shield in 2012. The goal of Arctic Shield is to perform 
Coast Guard missions and activities, broaden partnerships, and 
enhance and improve preparedness, prevention, and response 
capabilities. The Coast Guard's capabilities, though, pale in 
comparison to those of Russia. Specifically, Russia has 46 
icebreaking vessels with 12 more under construction in 
comparison to the Coast Guard's two operating icebreakers (one 
heavy and one medium) in the polar regions.\3\ While the Coast 
Guard has awarded the construction contract for the first three 
new Polar Security Cutters, at present it is forced to stretch 
its other assets and capabilities to secure a wide mission set 
at each pole with limited resources until delivery of the first 
ice breaker in 2024.\4\
---------------------------------------------------------------------------
    \3\ Ronald O'Rourke. ``Coast Guard Polar Security Cutter (Polar 
Icebreaker) Program: Background and Issues for Congress.'' 
Congressional Research Service. Updated March 1, 2019.
    \4\ Id.
---------------------------------------------------------------------------
    Due to constraints on Coast Guard resources, international 
cooperation is integral to ensuring the United States retains a 
presence in the Artic. Established in 1996, the Arctic Council 
is made up of eight Arctic nations (Canada, Denmark, Finland, 
Iceland, Norway, Russia, Sweden, and the United States as well 
as 13 non-Arctic Nations with observer status.\5\ In 2009, the 
Arctic Council called upon the International Maritime 
Organization (IMO) to formulate and adopt the International 
Code for Ships Operating in Polar Waters, referred to as the 
Polar Code.\6\ The Polar Code went into effect on January 1, 
2017, and enacts mandatory requirements intended to improve 
vessel safety and prevent pollution from vessels transiting in 
the Arctic, including standards for ship construction, 
navigation, crew training, and ship operation.\7\ As a key 
participant in the IMO, the Coast Guard will continue to help 
shape Arctic policy through implementation of the Polar Code.
---------------------------------------------------------------------------
    \5\ Arctic Council. ``The Arctic Council: A backgrounder.''
    \6\ International Maritime Organization. ``Polar Code.''
    \7\ Id.
---------------------------------------------------------------------------

ANTARCTICA

    While United States presence in the Artic is important, the 
Coast Guard is also vital in maintaining United States presence 
in the Antarctic as well. This year marked the 23rd journey 
that the Coast Guard's heavy icebreaker, POLAR STAR, made to 
Antarctica in support of Operation Deep Freeze.\8\ Operation 
Deep Freeze is an annual joint military service mission to 
resupply the United States' Antarctic research stations. In 
accordance with the Antarctic Treaty of 1959, the Coast Guard, 
in coordination with the Department of State, National Science 
Foundation, and National Oceanic and Atmospheric 
Administration, also conduct inspections of foreign research 
stations, installations, and equipment. The inspections serve 
to verify compliance with the Antarctic Treaty and its 
Environmental Protocol, including provisions prohibiting 
military measures and mining, as well as provisions promoting 
safe station operation and sound environmental practices. 
Inspections emphasize that all of Antarctica is accessible to 
interested countries despite territorial claims and reinforce 
the importance of compliance with the Antarctic Treaty's arms 
control provisions.\9\ The Coast Guard's presence in Antarctica 
also reinforces compliance with and enforcement of marine 
resource conservation and protection measures established under 
the Convention on the Conservation of Antarctic Marine Living 
Resources (CCAMLR).\10\
---------------------------------------------------------------------------
    \8\ United States Coast Guard. ``United States' only heavy 
icebreaker completes Antarctic Treaty inspections and resupply 
mission.'' United States Coast Guard. News Release.
    \9\ Id.
    \10\ Commission for the Conservation of Antarctic Marine Living 
Resources. ``CAMLR Convention.''.
---------------------------------------------------------------------------

ASIA

    Originally established in 2002 in support of Operation 
Iraqi Freedom, the U.S. Coast Guard Patrol Forces Southwest 
Asia (PATFORSWA) remains the Coast Guard's largest unit outside 
of the United States.\11\ PATFORSWA is currently supporting 
Operation Enduring Freedom by providing a continued maritime 
humanitarian presence on the seas, assisting the Navy's Fifth 
Fleet with combat-ready assets, utilizing unique access to 
foreign territorial seas and ports, formulating strong and 
independent relationships throughout the Arabian Gulf, 
conducting vessel boardings, and developing maritime country 
engagements on shore. PATFORSWA is comprised of six 110-foot 
cutters, shore side support personnel, Advanced Interdiction 
Teams, Maritime Engagement Teams, and other deployable 
specialized forces operating throughout the U.S. Central 
Command Area of Operation.
---------------------------------------------------------------------------
    \11\ United States Coast Guard Atlantic Area. ``Patrol Forces 
Southwest Asia.''
---------------------------------------------------------------------------
    In 2016, the United States initiated the Southeast Asia 
Maritime Security Initiative (MSI) which includes Indonesia, 
Malaysia, the Philippines, Thailand, Vietnam, Singapore, 
Brunei, and Taiwan. The MSI aims to improve the ability of 
these countries to address a range of maritime challenges 
including China's growing assertiveness in the South China Sea. 
Specifically, the Coast Guard assists those nations by 
providing training for each host nation's coast guard, 
organizational development, human resource capacity building, 
technical skills, and educational and training partnerships. In 
the Philippines, the Coast Guard transferred the high-endurance 
cutter (HEC) BOUTWELL to the Philippine Navy in order to 
maintain a greater maritime presence and patrols throughout its 
Exclusive Economic Zone. More recently in May of 2019, the 
Coast Guard conducted a joint search-and-rescue exercise with 
the Philippine Coast Guard and then made a port call to Manila 
which was the first visit of its kind in seven years.\12\ Of 
interest, the Coast Guard intends to decommission the last two 
High Endurance Cutters (HECs)in Fiscal Year 2021\13\ providing 
two additional hulls that could be transferred to partner 
states to improve the readiness and capabilities of their 
respective coast guards.
---------------------------------------------------------------------------
    \12\ Prashanth Parameswaren. August 27, 2019. ``What's Behind the 
Rising U.S.-Southeast Asia Coast Guard Cooperation?'' The Diplomat.
    \13\ Department of Homeland Security. ``U.S. Coast Guard Budget 
Overview Fiscal Year 2021 Congressional Justification.''
---------------------------------------------------------------------------
    Through the Southeast Asia Maritime Law Enforcement 
Initiative, the Coast Guard has partnered with Indonesia's 
Maritime Security Agency to help train coast guards from the 
region.\14\ In June of 2019, the Coast Guard supported a 
Technical Experts Workshop which featured participants from 
Indonesia, Cambodia, Malaysia, Thailand, and Vietnam.\15\ The 
purpose of the event was to share expertise in dealing with 
nontraditional transnational and regional maritime threats. At 
that particular event, the focus was on drugs and illegal, 
unreported, and unregulated (IUU) high seas fishing, but the 
annual workshop seeks to explore different issues aimed at 
strengthening the capacity of partner countries.\16\
---------------------------------------------------------------------------
    \14\ Ni Komang Erviani. June 30, 2019. ``Southwest Asian countries 
complete maritime law enforcement exercise.'' The Jakarta Post.
    \15\ Id.
    \16\ Id.
---------------------------------------------------------------------------

AFRICA

    The African Maritime Law Enforcement Partnership (AMLEP) 
program enables African partner nations to build maritime 
security capacity and improve management of their maritime 
environment through real world combined maritime law 
enforcement operations.\17\ Typically, a Coast Guard law 
enforcement boarding team will accompany the host nations while 
conducting at-sea vessel boardings. These boardings consist of 
identifying a target of interest, employing small boats with 
teams aboard, directing the suspect vessel to stop, and 
embarking on the vessel to investigate. AMLEP directly supports 
U.S. Africa Command's (AFRICOM) efforts to counter human, 
weapon, and drug trafficking, maritime pollution, piracy/
kidnapping, and IUU fishing.
---------------------------------------------------------------------------
    \17\ United States Africa Command. ``Africa Maritime Law 
Enforcement Partnership (AMLEP) Program.''
---------------------------------------------------------------------------

SOUTH AMERICA

    Illegal drug trafficking continues to threaten the safety, 
security, and public health of U.S. citizens and destabilize 
foreign governments. The ability to intercept these drugs 
before they enter the U.S. enables agencies responsible for 
interdiction, like the Coast Guard, to leverage assets and 
seize drugs in bulk before they are broken into smaller 
packages inside the United States. In his May 1, 2019 testimony 
to the U.S. House Committee on Armed Services, U.S. Southern 
Command (SOUTHCOM) Commander Admiral Craig Faller stated that 
last year Joint Interagency Task Force South (JIATF-South) was 
only able to disrupt about 6% of known drug movements.\18\ He 
also stated that ``doing more would require additional ships 
and maritime patrol aircraft and greater participation by 
interagency and international partners . . . '' \19\
---------------------------------------------------------------------------
    \18\ Admiral Craig S. Faller. ``Posture Statement of Admiral Craig 
S. Faller Commander, United States Southern Command Before the 116th 
Congress. House Armed Services Committee.'' United States Southern 
Command. May 1, 2019.
    \19\ Id.
---------------------------------------------------------------------------
    Operation Martillo (Hammer) is the current JIATF-South 
counter-drug operation seeking to optimize those international 
partnerships. Operation Martillo brings together 14 countries 
to disrupt drug smuggling in the Transit Zone, including 
Belize, Canada, Colombia, Costa Rica, El Salvador, France, 
Guatemala, Honduras, the Netherlands, Nicaragua, Panama, Spain, 
the United Kingdom and the United States.\20\ Chile has also 
assisted Operation Martillo. Since its launch on January 15, 
2012, Operation Martillo has supported the seizure of 693 
metric tons of cocaine, $25 million in bulk cash, detainment of 
581 vessels and aircraft, and the arrest of 1,863 
detainees.\21\
---------------------------------------------------------------------------
    \20\ U.S. Southern Command. ``Campaign Martillo.''
    \21\ Id.
---------------------------------------------------------------------------
    The Coast Guard will not be successful in their drug 
interdiction efforts without a robust ability to discover, 
analyze, and disseminate intelligence. This includes access to 
U.S. Maritime Domain Awareness data as well as strong 
relationships with partner nations.

EUROPE

    As stated earlier, the Coast Guard strengthens 
international partnerships through the transfer of 
decommissioned and excess maritime assets. In October of 2019, 
the Service provided two former 110-foot Island-class patrol 
boats to Ukraine through the Excess Defense Articles Program of 
the Coast Guard's Office of International Acquisition.\22\ The 
transfer also allows for the outfitting and training of Ukraine 
navy crews at U.S. Coast Guard facilities. Those vessels were 
the seventh and eighth 110-foot patrol boats transferred to a 
foreign nation. Other patrol boats have been transferred to 
Pakistan, Georgia, and Costa Rica. While originally initiated 
shortly after the Russian annexation of Crimea, the delivery of 
the vessels came at a time of increased tensions between the 
two countries. In addition to the two HECs mentioned earlier, 
the Coast Guard intends to decommission two additional Island 
Class Patrol Boats and eight Marine Protector Class Coastal 
Patrol Boats providing additional opportunities for partner 
state capacity building.
---------------------------------------------------------------------------
    \22\ Lt. Bobby Dixon. ``U.S. 6th Fleet Turns over Former Coast 
Guard Cutters to Ukrainian Navy.'' Washington Headquarters Services. 
News Release.
---------------------------------------------------------------------------
    As a member of the International Port Security Program, the 
Service seeks to reduce risk to U.S. maritime interests, 
including ports and ships, and to facilitate trade 
globally.\23\ Through port inspections, the Coast Guard can 
ensure that foreign ports and vessels are taking the necessary 
steps to minimize maritime threats. With over 150 partnerships, 
International Port Security Liaison Officers can share 
information, offer recommendations, review improvements, and 
otherwise collaborate to advance mutual goals.
---------------------------------------------------------------------------
    \23\ United States Coast Guard Atlantic Area. ``International Port 
Security Frequently Asked Questions.''
---------------------------------------------------------------------------

THE FUTURE OF THE COAST GUARD

    In order to safely and effectively execute its broad 
portfolio of missions, the Coast Guard must carefully balance 
and re-balance its resources. While the Coast Guard can and 
does play a valuable international role, it is not without a 
strain on resources across its domestic missions. There are a 
finite number of Coast Guard assets and personnel. In order to 
be most effective, the Coast Guard relies on cooperative 
relationships with the Department of Defense, partner nations, 
and transnational organizations.
    In his 2020 State of the Coast Guard address and in 
reference to the Service's international operations, Admiral 
Schultz stated, ``The aforementioned programs are funded by the 
Department of Defense, but many of our contributions are not, 
leaving the Coast Guard on an unsustainable path to support our 
growing operational requirements . . . The long-term solution 
is to recognize the Coast Guard's crucial role in maintaining 
our national security.'' \24\
---------------------------------------------------------------------------
    \24\ Admiral Karl Schultz, Commandant. ``2020 State of the United 
States Coast Guard ``Why I Serve'' '' February 20, 2020. Charleston, 
SC.
---------------------------------------------------------------------------
    As the Department of Defense and the Department of State 
continue to seek the assistance of the Service to advance 
American interests abroad, it is important to ensure that those 
activities are funded appropriately and the effect on the 
remaining Coast Guard missions is considered.

                              WITNESS LIST

PANEL I

    <bullet> LVice Admiral Daniel B. Abel, Deputy Commandant 
for Operations, United States Coast Guard

PANEL II

    <bullet> LThe Honorable David Balton, Senior Fellow, Polar 
Institute, The Wilson Center
    <bullet> LDr. Stephen E. Flynn, Founding Director, Global 
Resilience Institute, Northeastern University
    <bullet> LDr. Amy E. Searight, Senior Adviser and Director, 
Southeast Asia Program, Center for Strategic and International 
Studies

 
        THE INTERNATIONAL ROLE OF THE UNITED STATES COAST GUARD

                              ----------                              


                        TUESDAY, MARCH 10, 2020

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2167, Rayburn House Office Building, Hon. Sean Patrick 
Maloney (Chairman of the subcommittee) presiding.
    Mr. Maloney. I would ask unanimous consent that the chair 
be authorized to declare recess during today's hearing.
    Without objection, so ordered.
    Good morning. Welcome to today's hearing on the 
international role of the United States Coast Guard.
    I wear another hat around here as a member of the 
Intelligence Committee, and I am keenly aware of the 
international moves being made by competitor nations to gain 
influence by exploiting opportunities and weak governance under 
the guise of building mutually beneficial partnerships.
    For example, China's Belt and Road Initiative allows them 
to shape international norms and forcefully assert their global 
presence through more than $1 trillion of trade and 
infrastructure investments. Given the state of our crumbling 
domestic infrastructure, it is unlikely that the United States 
is going to match that level of spending on international 
projects.
    So instead, we must make strategic investments that allow 
us to maintain and develop relationships with key partner 
nations by increasing their capacity, improving their Maritime 
Domain Awareness, and enhancing enforcement activities that 
uphold the rule of law. So I agree with the Commandant of the 
Coast Guard's assertion characterizing the financial entrapment 
of vulnerable countries as more than just a conservation and 
sustainability issue, but rather a national security challenge 
warranting a clear and decisive response from the United 
States.
    The Coast Guard has a longstanding history of international 
involvement, and has played a crucial role in every American 
military conflict since its inception in 1790. While its 
military service is obvious, the Coast Guard's diverse mission 
set also makes it distinctively qualified to advance America's 
global interests and exert international influence.
    In fact, the Coast Guard's current international presence 
is focused on nonmilitary capacity building and strategic 
partnerships. For example, the Coast Guard has bilateral 
agreements with over 60 partner nations, uniquely leveraging 
partnerships across domestic and international arenas on a 
variety of maritime missions, including search and rescue, 
counterdrug, migration, fisheries, and proliferation security 
initiatives, bringing trusted access, capacity building, and 
seamlessly operating under title 10 and 14 authorities.
    While the Coast Guard's international missions have proven 
successful, I am keenly aware of the delicate balance that must 
be struck when allocating resources. Every cutter sent abroad 
results in one fewer cutter performing drug interdiction or 
search-and-rescue missions closer to home. For this reason we 
must ensure that the Coast Guard's increasing international 
role is met with additional resources.
    It is unacceptable that the Department of Defense fails to 
fully reimburse the Coast Guard for the direct international 
assistance it provides. Further, Congress must consider whether 
current funding levels are sufficient to support the Coast 
Guard's vast array of missions.
    In particular--and I am interested in what our witnesses 
have to say on this front--I am--we have to right-size our 
resource allocation with respect to emerging responsibilities 
of the Coast Guard, growing responsibilities, particularly in 
the Arctic, where the race is on for influence and for 
position. And I would be particularly interested in our 
positioning in that region.
    But, of course, it is not just the Arctic. It would include 
the South China Sea, it would include nearly every corner of 
the globe.
    So I look forward to hearing from today's witnesses on the 
international role of the Coast Guard, where there should be a 
larger presence, and the ways in which Congress can best 
support that mission.
    [Mr. Maloney's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Sean Patrick Maloney, a Representative in 
  Congress from the State of New York, and Chairman, Subcommittee on 
                Coast Guard and Maritime Transportation
    Good morning and welcome to today's hearing on ``The International 
Role of the United States Coast Guard.'' In my other role, as a member 
of the House Intelligence Committee, I am keenly aware of the 
international moves being made by competitor nations to gain influence 
by exploiting opportunities and weak governance under the guise of 
building mutually beneficial partnerships.
    China's Belt and Road Initiative for example, allows China to shape 
international norms and forcefully assert its global presence through 
more than $1 trillion of trade and infrastructure investments. Given 
the state of our crumbling domestic infrastructure, it is unlikely that 
the United States is going to match that level of spending. Instead we 
must make strategic investments that allow us to maintain and develop 
relationships with key partner nations by increasing their capacity, 
improving their maritime domain awareness, and enhancing enforcement 
activities that uphold the rule of law. I agree with the Commandant of 
the Coast Guard's assertion characterizing the financial entrapment of 
vulnerable countries as more than just a conservation and 
sustainability issue; but rather a natural security challenge 
warranting a clear and decisive response from the United States.
    The Coast Guard has a longstanding history of international 
involvement and has played a crucial role in every major American 
military conflict since its inception in 1790. While its military 
service is obvious, the Coast Guard's diverse mission set also makes it 
distinctively qualified to advance America's global interests and exert 
international influence. In fact, the Coast Guard's current 
international presence is focused on non-military capacity building and 
strategic partnerships. For example, the Coast Guard has bilateral 
agreements with over 60 partner nations, uniquely leveraging 
partnerships across domestic and international arenas on a variety of 
maritime missions, including search and rescue, counterdrug, migration, 
fisheries, and proliferation security initiatives bringing trusted 
access, capacity building, and seamlessly operating under Title 10 and 
14 authorities.
    While the Coast Guard's international missions have proven 
successful, I am keenly aware of the delicate balance that must be 
struck when allocating resources. Every cutter sent abroad results in 
one fewer cutter performing drug interdictions or search and rescue 
missions.
    For this reason, we must ensure that the Coast Guard's increasing 
international role is met with additional resources. It is unacceptable 
that the Department of Defense fails to fully reimburse the Coast Guard 
for the direct international assistance it provides. Further, Congress 
must consider whether current funding levels are sufficient to support 
the Coast Guard's vast array of missions.
    I look forward to hearing from today's witnesses on the 
international role of the Coast Guard, where there should be a larger 
presence, and the ways in which Congress can best support that mission.

    Mr. Maloney. I now call on the ranking member, Mr. Gibbs, 
for any remarks he may have.
    Mr. Gibbs. Thank you, Chairman Maloney. And good morning, 
Admiral.
    The United States Coast Guard's unique authorities, 
international relationships, and service culture make it a 
crucial part of our national security system.
    Many may not know the wide range of capabilities and 
responsibilities that the Coast Guard has while it defends our 
homeland from foreign threats. As the only branch of the armed 
services with law enforcement authority, it plays a unique role 
in the Nation's international engagement in crucial hotspots, 
from the Persian Gulf to the South China Sea. Most notably, the 
Coast Guard uses its unique access and capabilities to 
strengthen partner nations' capabilities, all in support of our 
national interests.
    In other words, presence equals influence.
    Unfortunately, increasing DoD requests for Coast Guard 
resources places more stress on a limited budget and other 
critical mission areas.
    The fiscal year 2020 operations and support budget 
increased 4.4 percent from fiscal year 2019. Legislation passed 
by the House that authorizes a further 6.4-percent increase in 
O&S funding for fiscal year 2021 continues to languish in the 
Senate. Despite these increases in funding, I remain concerned 
about how these increased demands will affect the Coast Guard's 
funding needs, especially in light of the increased competition 
from other nations.
    I look forward to hearing from the witnesses on how the 
Coast Guard's international role supports our national 
interests, and how the Service will support this work alongside 
its domestic maritime missions.
    [Mr. Gibbs' prepared statement follows:]
                                 <F-dash>
Prepared Statement of Hon. Bob Gibbs, a Representative in Congress from 
the State of Ohio, and Ranking Member, Subcommittee on Coast Guard and 
                        Maritime Transportation
    The United States Coast Guard has unique authorities, international 
relationships, and service culture that make it a crucial part of our 
national security system.
    Many may not know the wide range of capabilities and 
responsibilities that the Coast Guard has while it defends our homeland 
from foreign threats. As the only branch of the Armed Services with law 
enforcement authority, it plays a unique role in the Nation's 
international engagement in crucial hotspots, from the Persian Gulf to 
the South China Sea. Most notably, the Coast Guard uses its unique 
access and capabilities to strengthen partner nations' capabilities, 
all in support of our national interests. In other words, ``presence 
equals influence.''
    Unfortunately, increasing DOD requests for Coast Guard resources 
places more stress on a limited budget and other critical mission 
areas. The FY 2020 Operations & Support budget increased 4.4 percent 
from FY 2019. Legislation passed by the House that authorizes a further 
6.4 percent increase in O&S funding for Fiscal Year 2021 continues to 
languish in the Senate. Despite these increases in funding, I remain 
concerned about how these increased demands will affect the Coast 
Guard's funding needs, especially in light of increased competition 
from other nations.
    I look forward to hearing from the witnesses how the Coast Guard's 
international role supports our national interests, and how the Service 
will support this work alongside its domestic maritime missions.

    Mr. Gibbs. And I yield back.
    Mr. Maloney. I thank the gentleman. I would now like to 
welcome our witness for our first panel.
    Today we are joined by Vice Admiral Daniel B. Abel, Deputy 
Commandant for Operations for the United States Coast Guard.
    I appreciate you being here today, sir, and we look forward 
to your testimony.
    Without objection, our witness' full statement will be 
included in the record.
    Since your written testimony has been made part of the 
record, the subcommittee would request that you limit your oral 
testimony to about 5 minutes.
    With that, Admiral Abel, you may proceed.

TESTIMONY OF VICE ADMIRAL DANIEL B. ABEL, DEPUTY COMMANDANT FOR 
                  OPERATIONS, U.S. COAST GUARD

    Admiral Abel. Good morning, Mr. Chairman and distinguished 
members of the subcommittee. It is an honor to discuss the 
Coast Guard's overseas operations, our work alongside our 
shipmates, with the Department of State, and the Department of 
Defense, and our combatant commanders. And I know you have got 
my written statement, sir.
    In 1978, as a high schooler, I knew I wanted to serve our 
country in uniform. The question was what uniform. Inside my 
locker, as a high school senior, was a bumper sticker from the 
United States Coast Guard. It said, ``U.S. Coast Guard: Small 
Service, Big Job.'' Clearly, that bumper sticker was 
compelling, but also could serve as a title for today's 
testimony. We are small in numbers. But our impact, 
domestically and internationally for our Nation, is huge.
    At all times we are members of the Armed Forces. At all 
times we are law enforcers. At all times we are marine 
regulators. And at all times we are members of the intel 
community. And we serve a Nation whose economic interests and 
national security are vastly linked to the sea.
    At home we patrol miles and miles of coastlines and in the 
waterways, save thousands of lives, protect the world's largest 
exclusive economic zone. But across the globe we are a highly 
demanded instrument of international diplomacy, recognized as 
the U.S. maritime service that is most relatable to partner 
nations. And these partner nations model their organization 
after us and our actions as they seek to address universal 
challenges posed by transnational organized crime, maritime 
threats, and their sovereign rights.
    And we are uniquely suited overseas, permanently or 
expeditionary, to protect our sovereign rights by expanding the 
borders out, enhancing partner capacity, and disrupting threats 
far away from our shore.
    As the chairman noted, we have 60 binational and 
multinational agreements and roles in international forums, 
unlike any other branch of the Armed Forces, or any other 
interagency partner. And these trusted partnerships provide 
unique access and capabilities across the competition continuum 
vital to our national success.
    And we are uniquely qualified to operate in ambiguous or 
gray areas requiring that flexible blend of law enforcement and 
military, title 10 and title 14. We set and enforce the 
behavior in the maritime domain, make sure that the rules-based 
order of nations is maintained.
    Candidly, we offer white hulls for gray times. And, as one 
of the five branches of the Armed Forces, we are a force 
multiplier for DoD in their worldwide deployment to execute 
defense ops, and supporting security defense priorities. We 
never replace DoD or duplicate DoD capabilities. We apply our 
unique authorities, capabilities, and partnerships to bridge a 
gap, expanding the Nation's military toolbox like no other 
Armed Force can.
    And in great power competition, we offer transparent 
engagement and partnerships at the professional and personal 
level. A free and open Indo-Pac is challenged by coercive and 
antagonistic activities, debt-trapping, the economic and 
subsistence impacts of illegal fishing, transnational crime, 
and corruption.
    As a Nation, we have direct interest in the Western 
Pacific, as well. Our U.S. Territories comprise 1.3 million 
square miles, or 43 percent of our EEZ. In my 41 years in this 
Coast Guard uniform, I have watched our Coast Guard 
increasingly bridge the gap from the diplomacy of State 
Department to DoD's lethality through international agreements, 
partnerships, and presence. The Service is well positioned and 
comfortable operating in that competitive space below the level 
of armed conflict, providing capabilities and decision space.
    Your Coast Guard is, indeed, a small Service with a big 
job.
    Thank you for the opportunity to testify. And on behalf of 
the men and women who stand the watch right now, and their 
families that wait for a safe return, thank you for your 
support.
    I stand ready for your questions.
    [Admiral Abel's prepared statement follows:]
                                 <F-dash>
 Prepared Statement of Vice Admiral Daniel B. Abel, Deputy Commandant 
                    for Operations, U.S. Coast Guard
                              Introduction
    Good morning Mr. Chairman and distinguished Members of the 
Subcommittee. It is my pleasure to be here today to discuss the U.S. 
Coast Guard's global operations, our support to the Department of State 
(DOS), and the Department of Defense (DoD) Geographic Combatant 
Commanders, as well as the role we play in the execution of the 
National Security and National Defense Strategy amidst the resumption 
of great power competition.
    The U.S. Coast Guard is a multi-mission, maritime service 
responsible for the safety, security, and stewardship of the high seas 
and waters subject to the jurisdiction of the United States. At all 
times a military service and branch of the U.S. Armed Forces, a federal 
law enforcement agency, a regulatory body, a first responder, and a 
member of the U.S. Intelligence Community, the U.S. Coast Guard 
operates on all seven continents and throughout the homeland, serving a 
nation whose national security and economic prosperity are inextricably 
linked to vast maritime interests.
    The U.S. Coast Guard protects and defends more than 100,000 miles 
of U.S. coastline and inland waterways, saves thousands of lives per 
year, and safeguards the world's largest Exclusive Economic Zone (EEZ), 
encompassing 4.5 million square miles of ocean. Indeed, the U.S. Coast 
Guard is fully engaged answering the call and balancing a multitude of 
dynamic maritime risks facing our nation.
    Across the globe, the U.S. Coast Guard is in high demand as an 
instrument of international diplomacy, recognized as the U.S. maritime 
service with the most relatable mission profile to many nations' 
maritime forces. Our partner nations model their actions after the U.S. 
Coast Guard, often with our assistance, in their efforts to address the 
universal challenges posed by transnational crime, human smuggling, 
maritime safety and security, environmental stewardship, illegal, 
unreported, and unregulated fishing (IUU), and foreign provocations in 
their sovereign waters.
                          Overseas Operations
    The U.S. Coast Guard maintains a robust permanent and expeditionary 
global footprint in the execution of its statutory missions. Our 
operations overseas protect our national interests by expanding 
operations beyond our physical borders, enhancing partner nation 
capability, and disrupting threats away from our shores. Within the 
scope of our resources, we respond to demand signals from the 
Department of State (DOS) and the Department of Defense (DoD) to 
conduct missions for which we are uniquely suited in support of 
national security and national defense priorities.
Cooperation
    The U.S. Coast Guard's network of over 60 multi and bi-lateral 
agreements and participation in international fora are unlike those of 
any other military force or government agency. This network provides 
access to partners in key regions on issues ranging from fisheries 
enforcement, to counter narcotics, to joint contingency plans for 
pollution in the Arctic, to anti-terror missions. These partnerships 
are vital to the Nation's success in the broader context of 
geostrategic competition and will only become more relevant in the 
decades to come.
    i)  As a result of the U.S. Coast Guard's law enforcement, 
regulatory, and humanitarian missions, the Coast Guard maintains 
professional service-to-service relationships and cooperates on 
maritime economic and national security challenges such as high-seas 
driftnet fishing with China, dangerous maritime migration with Cuba, 
and safe navigation of the Bering Sea and Arctic with our counterpart 
agencies in Russia, while serving as a role model for behavior in the 
maritime domain.
    ii)  As the model example of international cooperation within the 
marine transportation system (MTS), the U.S. Coast Guard's 
International Port Security Program, with a permanent overseas presence 
in the Netherlands, Japan, and Singapore, conducts port security 
assessments and capacity building under the International Maritime 
Organization's (IMO) International Ship and Port Facility Security Code 
(ISPS Code) in over 150 coastal states. This program reduces risk to 
U.S. maritime interests, including U.S. ports and ships, and 
facilitates secure maritime trade across the globe.
Competition Below the Level of Armed Conflict
    In addition to building and reinforcing partnerships, the U.S. 
Coast Guard provides specialized operational capabilities in support of 
national security objectives. The U.S. Coast Guard is uniquely 
qualified to operate in ambiguous environments requiring a flexible 
blend of diplomatic, military, economic, and law enforcement tools. By 
setting and enforcing standards of behavior in the maritime domain, the 
U.S. Coast Guard upholds a rules-based order in the face of 
geostrategic competition and leads like-minded nations to counter 
malign actors below the level of armed conflict. Examples include 
shaping international norms as a U.S. representative at bodies such as 
the Arctic Council or the International Maritime Organization (IMO), 
supporting Combatant Commanders through Theater Security Cooperation 
(TSC) missions, and United Nation's member states through sanctions 
enforcement in the South China Sea. The U.S. Coast Guard offers white 
hulls for gray geopolitical times.
Armed Conflict
    The U.S. Coast Guard has served in a combat role during every major 
armed conflict involving the United States since 1790. The Service 
remains committed to interoperability with our DoD partners and is 
ready to fulfill its complementary role in the event of armed conflict 
or contingency operations as an active member of the Joint Force. 
Whether we are supporting military mobility through our management of 
the marine transportation system or operating jointly with other 
services, the U.S. Coast Guard remains Semper Paratus (Always Ready) 
when the Nation calls.
             Support to DoD Geographic Combatant Commanders
    As one of the five Armed Forces, and the only service with both 
Title 10 and Title 14 authorities, the U.S. Coast Guard serves as a 
force multiplier for the Joint Force and deploys world-wide to execute 
our statutory defense operation missions in support of national 
security and defense priorities. Our enduring role is not, and never 
has been, to replace or duplicate DoD assets or capabilities, but 
rather to apply our unique authorities and capabilities to bridge gaps 
and create opportunities, enabling the Service to augment DoD's ``tool 
kit'' in ways no other Armed Force can. While the DoD is rightly 
focused on hard power lethality, the U.S. Coast Guard provides the full 
spectrum of smart power multi-mission flexibility, including trusted 
access, with both kinetic and non-kinetic options to advance U.S. 
interests, preserve U.S. security and prosperity, and address wide-
ranging threats and challenges.
    Around the world, on any given day, more than 2,000 U.S. Coast 
Guard members are deployed in direct support of Geographic Combatant 
Commander priorities. In the Middle East, the U.S. Coast Guard has over 
240 personnel assigned in Manama, Bahrain, including six patrol boats, 
a maritime engagement team, and an advanced interdiction team which 
support U.S. Central Command's maritime security, theater security 
cooperation (TSC), and counter-piracy initiatives. Likewise, the U.S. 
Coast Guard regularly supports U.S. Africa Command's African Maritime 
Law Enforcement Partnership program with cutter deployments and 
deployable specialized forces to stem maritime security threats that 
destabilize the region and our partners. The Coast Guard supports TSC 
in Africa through the provision of a maritime advisor to the Liberian 
Coast Guard. Coast Guard security cooperation with littoral-focused 
navies fill a crucial skills and capability gap that our partners need 
in order to better control their maritime zones, counter illegal 
trafficking, and to counter power projection by global adversaries that 
is often justified by the lack of safe shipping lanes for commercial 
use.
    In the Indo-Pacific theater, U.S. Coast Guard capabilities and 
authorities are leveraged to advance important strategic National 
Security objectives. National Security Cutter deployments in support of 
U.S. Indo-Pacific Command (INDOPACOM) enforce United Nations sanctions 
enforcement while building partner nations' security capabilities. The 
U.S. Coast Guard also supports INDOPACOM through cutter deployments and 
professional engagements in Oceania, and by deploying the nation's only 
heavy icebreaker in support of both Joint Task Force-Support Forces 
Antarctica and in ensuring Antarctica Treaty compliance.
    Closer to home, the U.S. Coast Guard is a key federal agency and 
force provider performing counter-maritime illicit trafficking 
operations as well as Detection and Monitoring in the Western 
Hemisphere Transit Zone; providing more than 4,000 hours of Maritime 
Patrol Aircraft and over 2,000 major cutter days to U.S. Southern 
Command (USSOUTHCOM) annually. Coast Guard law enforcement teams are 
also deployed aboard DoD, and Allied, assets to bring specialized law 
enforcement authorities that other military services lack. Spanning a 
maritime operating area roughly the size of the continental United 
States, the Coast Guard deploys aircraft, cutters, intelligence teams, 
and specialized law enforcement personnel to defend maritime approaches 
to the Homeland.
    Interdicting illicit cargoes at sea creates space and opportunity 
for our Central American partners to thwart the rampant violence and 
corruption that illegal drugs induce in fragile democracies, and 
bolster the rule of law within their own countries. With the Service's 
unique authorities and capabilities, the U.S. Coast Guard continues to 
yield large-scale successes in its counter-drug mission in USSOUTHCOM's 
area of responsibility. Over the past four years, the U.S. Coast Guard 
removed more than 1.8 million pounds of pure cocaine from the transit 
zone, resulting in 24 billion dollars in drug proceeds denied to 
Transnational Criminal Organizations. Exercising expeditionary maritime 
law enforcement capabilities, Port Security Unit detachments provide 
USSOUTHCOM 24 hour/7 day a week anti-terrorism and force protection 
presence in the Naval Defensive Sea Area of Guantanamo Bay, Cuba.
    The U.S. Coast Guard supports the Defense Security Cooperation 
Agency via mobile training teams, developing partner nation capacity 
all over the world, including Georgia, Honduras, Jordan, and Tunisia. 
The service also supports Foreign Military Sales and Foreign Military 
Financing; fundamental tools of U.S. foreign policy that advance 
national security priorities. The Coast Guard fills several critical 
Senior Defense Official positions in U.S. embassies in the Western 
Hemisphere, and Coast Guard attache billets in other embassies 
globally.
    While not internationally based, the U.S. Coast Guard also provides 
domestic operational support to DoD, specifically with our 15 years of 
aircraft and air intercept crew support for low/slow air threats to the 
National Capital Region as part of Operation NOBLE EAGLE, as well as 
deployable Rotary Wing Air Intercept capabilities in support of U.S. 
Northern Command. The U.S. Coast Guard also provides Maritime Force 
Protection Units (MFPUs) to defense bases in Bangor, WA, and Kings Bay, 
GA, where Coast Guard units protect strategic DoD assets on both the 
Pacific and Atlantic coasts.
    At U.S. Cyber Command, U.S. Coast Guard personnel serve in critical 
technical and intelligence capacities to defeat our adversaries in 
cyberspace. The U.S. Coast Guard recognizes the cyberspace operating 
environment as key terrain that can impact and drive mission and 
economic success in all domains. Partnering with other like-minded 
nations, the U.S. Coast Guard is building information sharing 
relationships between major ports to provide resiliency for the free 
flow of commerce during cyberattacks that may attempt to corrupt or 
slow U.S. supply lines. The Service is building our cyber workforce to 
assist in protecting America's maritime commerce and economy. Our first 
Cyber Protection Team is building capacity while integrating with the 
Cybersecurity and Infrastructure Security Agency to deploy and protect 
critical infrastructure and U.S. economic stability.
          Global Power Competition in Arctic and Indo-Pacific
Arctic
    The United States is an Arctic nation with extensive sovereign 
rights and responsibilities, and our national security interests in the 
Arctic are significant, in part due to the reemergence of global power 
competition in the region. Actions and intentions of Arctic and non-
Arctic states shape the security environment and geopolitical stability 
of the region. In particular, our two near-peer competitors, Russia and 
China, are demonstrably intent on exploiting the maritime domain to 
advance their interests.
    From a military perspective, Russia's long Arctic coastline, in a 
future stripped of sea ice, will be open to support naval fleets 
readily deployable between the Atlantic and Pacific. The Russian 
government is currently rebuilding and expanding military bases that 
had previously fallen into disuse. These renewed capabilities include 
air bases, ports, weapons systems, troop deployments, domain awareness 
tools, and search-and-rescue response. Additionally, Russia has the 
world's largest number of icebreakers. With over 50 icebreakers that 
include four operational, nuclear-powered heavy icebreakers, and plans 
to build an additional seven nuclear powered icebreakers, Russia 
maintains the capabilities, capacities, experienced crews, and 
infrastructure necessary to operate and surge into the Arctic year-
round.
    Likewise, with the release of their Arctic Policy paper in January 
2018, the People's Republic of China (PRC) declared itself a nation 
intrinsically tied to the Arctic, and signaled its intent to play a 
security and governance role in the region. In 2019, the PRC launched 
its first domestically-built icebreaker and has begun designing an even 
more powerful and potentially nuclear-powered polar icebreaker expected 
to have twice the icebreaking capability of its newest vessel. With 
three icebreakers, the PRC will have greater Arctic access and capacity 
than the United States. PRC activities, and the manner in which they 
seek support for their Arctic ambitions may potentially disrupt the 
longstanding cooperation and stability in the region. Around the globe, 
the PRC uses coercion, influence-operations, debt-trap diplomacy, and 
implied military threats to persuade other states to acquiesce to its 
global agenda. The PRC incorporated the Arctic as a component of its 
One Belt, One Road initiative, recently dubbed the Polar Silk Road and 
continues to emphasize its self-proclaimed status as a ``near Arctic 
state''. The PRC's ambitions and outreach are fraught with risk, often 
times diminishing the sovereignty of states and fracturing the rules-
based governance in the region.
    The ability for the United States to lead in the Arctic, both 
strategically and operationally, hinges on having the capabilities and 
capacity (presence) to protect our sovereign rights, and homeland 
security interests. The foundation of the U.S. Coast Guard's 
operational presence and influence is U.S. icebreakers, whose purpose 
is to provide assured, year-round access to the Polar Regions for the 
execution of national security missions within existing Coast Guard 
authorities.
    The U.S. Coast Guard's icebreaker capacity lies in one heavy-class 
polar icebreaker, USCGC POLAR STAR--commissioned in 1976, and one 
medium-class icebreaker, USCGC HEALY--commissioned in 2000. However, 
due to the strong support of the Administration and Congress, in April 
of 2019, the joint U.S. Coast Guard and Navy Integrated Program Office 
(IPO) awarded VT Halter Marine Inc., of Pascagoula, Mississippi, a 
fixed price incentive (firm) contract for the detail design and 
construction of one Polar Security Cutter (PSC). We are as close as we 
have ever been in over 40 years to recapitalizing our icebreaking 
fleet, and continued investment to grow the fleet will ensure we meet 
our Nation's national security objectives in the Polar Regions.
Indo-Pacific
    The U.S. Coast Guard has a specific and irreplaceable national 
security role to advance the rules-based maritime governance of the 
Indo-Pacific region. The maritime domain is the lifeblood of the Indo-
Pacific, and the U.S. has direct sovereign interests in the region, 
including the Territories of Guam, the Commonwealth of Northern Mariana 
Islands, and American Samoa; this includes the 1.3 million square 
miles, or 43 percent, of the U.S. EEZ located in the Western and 
Central Pacific. Expanding commitments to meet security and defense 
needs of the sovereign states of Palau, the Federated States of 
Micronesia, and the Republic of the Marshall Islands under the Compacts 
of Free Association further cement the need for U.S. Coast Guard 
engagement in the region.
    The concept of a free and open Indo-Pacific is challenged by 
China's coercive and antagonistic activities across the region, while 
the Pacific Island Countries and Territories specifically face inter-
related threats of debt-trapping, economic and societal impacts of IUU 
fishing, and transnational crime and corruption.
    As part of a whole of government approach to addressing challenges 
in Oceania and the broader Indo-Pacific region, the U.S. Coast Guard 
offers transparent, persistent engagement and partnership at both 
professional and personal levels that challenge the PRC's approach in 
the region. The U.S. Coast Guard is expanding our engagement in the 
Indo-Pacific by establishing additional permanent presence through 
diplomatic missions (e.g. Australia, Malaysia) to strengthen regional 
engagement, working to build the capacity of the Philippines and 
Vietnamese Coast Guards, and executing new operational concepts, either 
organically, or in conjunction with the DoD, by providing specialized 
capabilities and expanding information sharing efforts with our 
partners.
    Beyond regular multi-mission patrols across the Indo-Pacific by our 
National Security Cutters, the U.S. Coast Guard is demonstrating our 
enduring commitment to the region by homeporting three of our newest 
Fast Response Cutters (FRC) in Guam over the next three years. 
Recently, FRCs and a U.S. Coast Guard buoy tender conducted ports 
visits to the Pacific Islands and discussed partner nation capacity 
building opportunities in an effort to strengthen operational 
partnerships. We anticipate these cutters will significantly increase 
U.S. Coast Guard operational presence throughout the region, and 
protect our EEZ from threats of IUU fishing and transnational crime.
                               Conclusion
    Through international engagement, partnership, and presence, the 
U.S. Coast Guard's international role and multi-mission flexibility 
serves as an important bridge between diplomacy and DoD's lethality. 
The Service is well-positioned and comfortable operating in the gray 
zone (the competitive space below the level of armed conflict) which 
provides time and decision space along the competition continuum. The 
U.S. Coast Guard anticipates an increasingly dynamic future of global 
competition, where the Service will be asked to move between 
cooperation, competition, and even conflict at a moment's notice.
    Thank you for the opportunity to testify before you today and for 
all you do for the men and women of the U.S. Coast Guard. I look 
forward to answering your questions.

    Mr. Maloney. I thank the gentleman. We will now proceed to 
Members' questions. Each Member will be recognized for 5 
minutes, and I will begin by recognizing myself.
    Admiral, you talk about the role that intelligence plays in 
the Coast Guard missions. I have a friend who is a senior 
executive at Goldman Sachs--he made better career choices than 
I did--and he likes to say that Goldman Sachs isn't a bank, it 
is a technology company. And the insight is that all of their 
functions are being translated increasingly into technology 
challenges.
    I have a view that most of the missions of the Coast Guard 
are going to be intelligence missions in the coming years. Can 
you say a word about that?
    Admiral Abel. Well, first of all, we pride ourselves on 
being an intel-driven organization, because, if you don't know 
what you are seeking to do, and what the adversary is doing, 
you are pretty much out of luck, particularly on the 
counterdrug business. When you have got an area of 
responsibility twice the size of the continent of the United 
States, it has got to be intel-based. So you have to know the 
load is moving, where the load is going to.
    In a broader role with DoD or other agencies, the fact that 
we are members of the intel community means we are those links 
that can link military to other agencies, sir.
    Mr. Maloney. Can you talk about the role that intelligence 
plays in missions, say, in the Arctic, or in the South China 
Sea?
    Can you also maybe specifically mention the need for secure 
communications on Coast Guard vessels?
    Admiral Abel. Yes, sir. So there is a strong draw to the 
Arctic. Whether it is 30 percent of the undiscovered natural 
gas, 13 percent of the undiscovered oil, $1 trillion worth of 
minerals, or just faster transit from Asia to Europe, the Coast 
Guard needs to be there.
    Every Coast Guard cutter should be a collector. And with 
the National Security Cutters--and we appreciate the support of 
Congress in fielding those--we have become very accustomed to 
having some very exquisite----
    Mr. Maloney. Admiral, excuse me, if I could just interrupt 
you right there, I know we are going to put those collection 
facilities on the Polar----
    Admiral Abel. Yes, sir.
    Mr. Maloney [continuing]. Security Cutters. And, of course, 
on the National Security Cutters.
    So what about the HPCs?
    Admiral Abel. The what?
    Mr. Maloney. What about the high-performance cutters?
    Admiral Abel. The Offshore Patrol Cutters?
    Mr. Maloney. Yes, excuse me, offshore----
    Admiral Abel. Yes, sir. Right now we are looking at the 
capability that is best suited for that vessel. We are doing an 
alternative analysis to see the best way that she can fit the 
niche. We still maintain that those vessels should all be 
collectors. There are different ways we could do it. We are 
working with the Navy, particularly. They are right now 
designing what the skiff will be like for FFG(X) to----
    Mr. Maloney. What would it cost to put a skiff on every 
OPC?
    Admiral Abel. Sir?
    Mr. Maloney. What would it cost to put a skiff on every----
    Admiral Abel. We are looking at the cost right now. I am--I 
can get the number back to you, but I would say around $25 
million, sir.
    Mr. Maloney. And how many are we talking about? Times what 
to outfit them all? Are we are talking about 20?
    Admiral Abel. The 25 Offshore Patrol Cutters in the fleet. 
Yes, sir.
    Mr. Maloney. Right. So a total number of $500 million?
    Admiral Abel. But, sir, that is the equipment alone. We 
need to, obviously----
    Mr. Maloney. Oh, I understand.
    Admiral Abel [continuing]. Have maintenance and crew----
    Mr. Maloney. But I understand that they are being outfitted 
for that equipment already, isn't that right?
    Admiral Abel. Sir?
    Mr. Maloney. Aren't they already being built with the 
capacity to add that equipment and add those facilities?
    Admiral Abel. Sir, the threshold requirement is space, 
weight, and power. Basically, an empty space with T1 drops, to 
then install the gear that we determine is best for the space. 
So----
    Mr. Maloney. And that is the $25 million.
    Admiral Abel. Yes, sir.
    Mr. Maloney. But that is the incremental cost we would need 
to incur to outfit every OPC with a----
    Admiral Abel. Current estimate, yes, sir. And we are 
looking at----
    Mr. Maloney. $500 million over 10 years, 8 years?
    Admiral Abel. Over--well, that would be the initial cost.
    Mr. Maloney. For the life of the program.
    Admiral Abel. Of the program. Yes, sir. Then IT you recap 
fairly quickly.
    Mr. Maloney. Right. What is that, 8 years? What is the 
timeframe on that program, 8 years, 10 years to----
    Admiral Abel. For the OPCs?
    Mr. Maloney. For all the OPCs, yes.
    Admiral Abel. The first one gets delivered in 2024. We have 
got the recompete for vessel 5 and beyond. So I can get back 
with you on the actual rollout of----
    Mr. Maloney. Right. But I guess my point would be that, in 
a period where we are going to spend $8 to $10 trillion on 
defense, we are talking about a $500 million expense to put a 
skiff on every OPC, which would allow the kind of collection 
intelligence-driven activities for all Coast Guard missions in 
all corners of the globe. Isn't that right?
    Admiral Abel. Yes, sir. And we agree that our white hulls 
can get places gray hulls can't, and we can collect on things 
that folks are suspect----
    Mr. Maloney. You read my mind, and it is a good segue to 
talk about the missions in the South China Sea or in Taiwan. 
What are we currently doing, and how are we resourcing those 
missions?
    Admiral Abel. Yes, sir. Well, this last year, I think you 
know, we pretty much committed a 1.0--basically a 365 presence 
of our National Security Cutter--two different cutters, they 
swapped out about mid-year. And they did a number of things 
over there, enforced U.N. security sanctions, they actually ran 
the Straits of Taiwan to test the Chinese to see how are you 
going to handle a Coast Guard cutter that is in a different 
place. We did the intel collection that I can certainly talk 
about on a classified level.
    But we showed China a different face of the United States 
that they had not seen.
    Mr. Maloney. What is the last time we did a freedom of 
navigation exercise in the Arctic?
    Admiral Abel. In the Arctic, sir? I will have to get back 
with you on that one. I mean, we send National Security 
Cutters----
    Mr. Maloney. It has been a while?
    Admiral Abel. Well----
    Mr. Maloney. It has been a while, hasn't it?
    Admiral Abel. Well, we are up there in the National 
Security Cutters, but we maintain in our own waters, sir.
    Mr. Maloney. What is farthest north? I am out of time, but 
what is the farthest north we have a port or a facility, a 
Coast Guard facility, in the Arctic? It is south of the Bering 
Strait, is it not?
    Admiral Abel. Sir, Kodiak is the farthest north we have.
    Mr. Maloney. Would it make sense to have a port north of 
the Bering Strait?
    Admiral Abel. Right now, the size of the ships that go up 
there are well supported with a brief stop for supplies in 
Dutch Harbor. So right--if we were there, we would use it. Is 
it a requirement? No.
    Mr. Maloney. I appreciate that.
    Mr. Gibbs?
    Mr. Gibbs. Yes, thank you.
    Admiral, last week the Commandant was quoted as saying 
there are about 750 monthly ship calls at our ports on the 
Pacific side, and that passenger vessels have at least 14 days 
subject to--haven't been out at sea for 14 days are detained 
and tested.
    As the Coast Guard, are you receiving the notices of 
arrival?
    And also, are you provided passenger data from the CDC?
    Admiral Abel. Sir, so what we are doing on that is, first 
of all, we are tracking all global maritime traffic. Any given 
day we are tracking 3,000 targets. Looking at just cruise lines 
alone, for the next 10 days we are talking 76 vessels, around 
270,000 passengers and crew. As they make their 96-hour 
notification, we work with Customs and Border Protection at a 
vetting center. We vet last five ports of call. The crew 
composition, the cargo on the vessel, and then, if there is 
anything suspect, we certainly work with CDC.
    I would also say there is a mandatory requirement if a sea 
captain has anyone sick on their vessel, crew or passenger, 
they have got to notify the Coast Guard. If we get one of those 
notifications, then we work with CDC for the best option.
    Candidly, you have seen a few times where CDC said the best 
option is to have the ship anchor offshore and work the case. 
And that is what we have been doing.
    Mr. Gibbs. So do you think the Coast Guard has enough 
resources right now? You feel comfortable, or--the position we 
are in right now?
    Admiral Abel. Sir, it is a challenge right now with the 
cruise industry. I think you know that the Vice President and 
our Secretary were with the cruise industry Saturday, down in 
south Florida. And they have been told to come back with a plan 
that mitigates the risks that we have been seeing in the cruise 
industry.
    Mr. Gibbs. How about the containerships, the crews from the 
containerships, how do we handle them?
    Admiral Abel. Yes, sir. So the proclamation that said that 
China had to wait 14 days, there was a cut-out for sea crews. 
And what we have done with them is, first all, if anyone is 
sick, we need to be notified, we will handle that. If no one is 
symptomatic, if that ship comes in, and they just stay with the 
vessel, turn the ship around, and get back underway, which is 
what the ship wants them to do--they don't make money sitting 
at the pier--off they go.
    We have not had widespread problems with the cargo 
industry. That $5.6 trillion of economic impact is moving with 
the containers coming.
    Mr. Gibbs. On resilience, both the DoD and the Coast 
Guard--you cite defense rules-based world order, central 
objective, foreign policy, and--what roles would resilience 
play in the current rules-based order?
    Admiral Abel. Resiliency, sir, for?
    Mr. Gibbs. Well, I guess I will go a little farther. Just--
Coast Guard's engagement with international military, civilian, 
and law enforcement partners affects the resilience of our 
ports and our maritime transportation system.
    Admiral Abel. Yes, sir. Well, you know, the maritime 
transportation system is an endowment that we got from Mother 
Nature. I mean, it is phenomenal. The deepwater ports, the 
rivers, that is what fuels the $5.4 trillion of commerce.
    What we do is, with the international inspections overseas, 
we push the threat over there. And if you don't meet the Coast 
Guard standards, you are going to have a condition of entry, 
which, at times, could say you need to anchor out until the 
Coast Guard visits your vessel. So it pays for those foreign 
ports to be Coast Guard approved, meet international standards, 
so when the ships show up it is quickly moving and they can 
turn around, get their cargo, and make money.
    Mr. Gibbs. I will move quickly to the Great Lakes. My 
understanding is, on the icebreaking capacity, the U.S. has 
shrunk down to six vessels, and the Canadians have stripped 
down to two in the last 7 years. Where are we in relation with 
our partnership, our agreement with the Canadians on 
icebreaking?
    And are we able to maintain our commitment? Or are they 
maintaining their commitment to us? What is the status?
    Admiral Abel. Yes, sir. So, you know, among those that ring 
the Great Lakes, it takes a village to keep the lakes going 
through the winter time.
    Mr. Gibbs. Yes.
    Admiral Abel. We have got a number of vessels, the 140s 
that we are putting through service-life extension right now, 
we are buying them 14 more years. We also have the buoy tenders 
that do sustainment breaking. If you can break it every couple 
of days, you don't need the big icebreaker. And, of course, we 
have got the Mackinaw.
    We have a good cooperative agreement with the Canadians. If 
we need help, they come help us, and the opposite.
    We also do appreciate the money from this committee, and we 
are studying what the future requirements are within the Great 
Lakes for icebreaking.
    Mr. Gibbs. Do U.S. Coast Guard icebreakers spend more time 
in the Canadian ports than the Canadian icebreakers spend in 
U.S. ports? What is that relationship?
    Admiral Abel. So I will get back with you. I don't have the 
statistics on which side of the border they are spending their 
time.
    Mr. Gibbs. OK. OK, I yield back.
    Mr. Maloney. Mr. Lowenthal?
    Mr. Lowenthal. Thank you, Mr. Chair. And thank you, Vice 
Admiral Abel.
    My community is very interesting. It is both the home of 
the Port of Long Beach--and the Coast Guard plays an immense 
role there--and it is also the home of the large Vietnamese 
expatriate community in southern California. And so we rely, in 
our district, as does the country, on free and open trade in 
the Indo-Pacific.
    And my constituents also have a very strong interest in 
checking China's influence in the south, especially in their 
dominance in the South China Sea, and what is going on. And you 
have addressed this issue now, that the Coast Guard is also 
very involved in these issues, and the importance of 
cultivating relationships with our allies and what you have 
done.
    So, my question is, given China's considerable ability to 
project a large presence in this region, and we know that that 
is what they are doing, and they have that ability, how can we 
best leverage the Coast Guard's resources to ensure that we are 
getting our biggest strategic bang for the buck?
    What are we going to do? How can we leverage your--and do 
it--a better job, knowing the role of China?
    Admiral Abel. Yes, sir. That really is part of our 
authorities, our capabilities, and our partnerships, which are 
different from DoD. And, as I mentioned, many of these 
countries, their navies or their coast guard really look like 
ours.
    And a simple element of national power could be a team of 
five Coast Guard petty officers that show up at a country that 
is struggling to help them maintain their outboard motors, say, 
``This is how we do it in the Coast Guard, here's some 
computerized maintenance records, and why don't we get dinner 
after we get done today working on your boat, and then maybe 
can we sell you some boats? Can we give you some boats? Can we 
maintain some boats?''
    That enduring sustainment of military-to-military, coast 
guard-to-coast guard, those small military training teams go 
far, as well as a Coast Guard cutter that can pull in. We could 
do strategic buoys. We could put buoys in a port that maybe is 
hindered with its amount of trade because they are lacking 
buoys.
    Those types of soft power is where you can turn to the 
United States Coast Guard. And that is the niche that we fill, 
sir.
    Mr. Lowenthal. I want to follow up on that, on these 
security relationships, and I think that is very positive. But 
on the flip side of that, that many of these countries in the 
Asia-Pacific region that face pressure from China are governed 
by regimes with mixed or even more concerning records on human 
rights. We are talking about, you know, I mentioned already the 
Vietnamese expatriate community.
    Well, there is a real strong concern about our 
relationship--or their human rights violations and their 
pressure from China, but yet engaging in the same kinds of 
human rights violations that China does. So it is very, very 
difficult to speak out.
    So, my question is, does--in dealing with that, does the 
Coast Guard training and educational programs include training 
on human rights issues? Because you are out there dealing with 
the Vietnamese Coast Guard, forming relationships, while we 
have--and while, on one hand, that is very positive, we have--
on the other hand, we have very strong concerns about their 
human rights issues. So maybe you could explain that to me 
also.
    Admiral Abel. Well, first of all, all our crews are 
trained, if they see any abuses while they are conducting the 
training, there are protocols for them to report back.
    Also, we work----
    Mr. Lowenthal. Has it ever happened?
    Admiral Abel. Pardon, sir? I can get back with you. I mean, 
there--they are keyed to say, you know, if you see this, this, 
or this, these are the things you need to do.
    Also, we work with the Department of State to make sure 
that the partners we are working with are partners we should be 
working with, to make sure that we are not working with nations 
that we can't trust or that abuse their public. It should be 
the public goes to those we are working with, not away from 
those we are working with. That would be the goal.
    And I would say, too, that, internationally, by pushing 
back on China and the things that they are trying to make new 
norms, they will continue to push unless we push back. So 
pushing back on illegal fisheries, poaching in someone else's 
waters, those are the things that will stop China from their 
spread across the Pacific.
    Mr. Lowenthal. Thank you, and I yield back.
    Mr. Maloney. Mr. Mast?
    Mr. Mast. Thank you, Chairman.
    Admiral, thank you for being here today. I want to switch 
gears a little bit, speak a little bit about the Marine 
Environmental Protection mission, and just start--number one, 
obviously, the Coast Guard needs more resources across the 
board.
    Can you discuss a little bit how is budgeting going for the 
Marine Environmental Protection mission? Where are there 
shortfalls there? Do you need more? Do you need less? Just give 
me a little bit of an overview on that to begin with.
    Admiral Abel. Well, as far as Marine Environmental 
Protection, I mean, we put the onus on the operator to make 
sure they have the initial supplies to react to a spill, or--of 
national significance, anything like that. But we do need to be 
prepared, as a Coast Guard, to respond if we need to.
    Could we use more resources? Absolutely, to make sure that 
we are ready at a moment's notice.
    Also, we make sure, again, that we inspect their plan, make 
sure their plan is viable, they have the resources on the short 
tether that is needed to then respond in a timely fashion, as 
far as their spill response plan, whether a facility or vessel.
    Mr. Mast. So I want to switch gears a little bit away from 
spill and emergency response in that way, and thinking a little 
bit more about the issue of ocean plastics, debris, garbage. Is 
it documented in Coast Guard logs on these vessels what they 
are seeing? Certainly around the U.S. or internationally, what 
they come across in the waters, in terms of debris in the 
water? Is that something that is documented within the logs?
    Admiral Abel. Sir, I don't know of any requirement that we 
place on them. We are not the lead on marine debris, that is 
NOAA. And we certainly team with them on a lot of activities.
    We do participate in the International Maritime 
Organization conventions on what you can throw overboard, what 
you can't, what you can pump overboard. So, in a way, we are 
there, making sure that what leaves a vessel is carefully 
sanctioned, and it is legal or not legal, and folks know what 
you need to retain onboard with incinerators or trash 
compactors.
    Mr. Mast. But to your point, what you--you don't know for a 
fact that--or, rather, you don't believe that the Coast Guard 
is documenting what they are seeing as they are navigating 
around the world, in terms of----
    Admiral Abel. I don't believe there is a requirement for a 
commanding officer to report such. No, sir.
    Mr. Mast. OK. Very good. Thank you. That is the extent of 
my questions. I appreciate your time today, sir.
    Mr. Maloney. Mr. Lamb?
    Mr. Lamb. Thank you, Mr. Chairman.
    And thank you, Admiral, for coming to be with us here 
today. I wanted to talk a little bit about the drug threat and 
the interdiction work that you all are doing. And I know that 
you emphasized in your testimony the amount of cocaine seized 
in the last couple of years, which is helpful.
    But in a lot of our country, especially western 
Pennsylvania, where I represent, opioids, heroin, and more so 
fentanyl now, are the bigger threat. Are your troops 
interdicting heroin and fentanyl and opioid products at sea, as 
well?
    Admiral Abel. So right now we are not seeing a large 
maritime vector, but I would say the same organizations and 
funds could fund the cartels that are running that.
    So in a way, yes, we are affecting it--is the fact that 
these large transnational criminal organizations, if they are 
making money on cocaine. We have seen some mixed loads. We did 
see some fentanyl that went from--it was Dominican Republic, it 
was going to Puerto Rico. We did interdict that. But again, the 
load may be mostly cocaine, and maybe some other stuff 
sprinkled in there.
    Mr. Lamb. But you have seen some mixed amounts? That was 
kind of what I was----
    Admiral Abel. Not on par with what we have seen on cocaine 
coming from the maritime vector.
    Mr. Lamb. OK. And is it roughly equivalent on the west 
coast, Pacific as in the Caribbean, or are you seeing more in 
one area than the other?
    Admiral Abel. You are saying the fentanyl opioid?
    Mr. Lamb. No, just overall, your interdiction----
    Admiral Abel. Oh, cocaine.
    Mr. Lamb [continuing]. Work, yes.
    Admiral Abel. Eighty percent of our work is in the Pacific, 
the Eastern Pacific.
    Mr. Lamb. OK.
    Admiral Abel. And huge AOR. And the way we get after that, 
candidly, is--it is three sides of a triangle. One, you have 
got to have intel. You have got to know the loads on the water. 
That gets you in the right zip code. You have to have a 
Maritime Patrol Aircraft. That gets you the street address. And 
you need a Coast Guard cutter with a helicopter that can shoot, 
and a small boat that can shoot, because they are not going to 
stop for you. If you can get those three ingredients, the 
effectiveness of that Coast Guard force package is much higher.
    Mr. Lamb. And the maritime aircraft, you are saying 
separate from the helicopter?
    Admiral Abel. Yes, sir. That would be a long-range search 
aircraft.
    Mr. Lamb. Yes.
    Admiral Abel. Our brothers and sisters from Customs and 
Border Protection do a phenomenal job. The Department of 
Defense always has an aircraft down there, as well. And 
sometimes it is a contract aircraft the Department of State 
pays for. So there is a number of aircraft, but we could use 
more.
    Mr. Lamb. OK. And just shifting gears for a second, do you 
see a growing presence for the Coast Guard in Southeast Asia 
doing some of this kind of direct enforcement against China 
that you talked about, as far as personnel? Do you have any way 
of forecasting that in the next 5 or 10 years? Do you see a big 
growth in kind of permanently stationing Coast Guard members 
out there?
    Admiral Abel. Right now we don't have any plans to 
permanently station folks there. The beauty of the maritime 
force is, we can adapt year to year with where the business is.
    A good example of what we did was we saw an urgent need. We 
sent one of our buoy tenders with a Fast Response Cutter, not 
two particularly large vessels, and they went island to island 
and did some nation building. We called it a strategic action 
group, which the Navy would snicker at.
    But for those islands, it was huge, the fact that the Coast 
Guard came in. They did some nation building, they did some law 
enforcement training, talked about search and rescue, marine 
environmental response, and they said, ``We will be back in a 
little bit,'' and that constant, you know, episodic visits that 
you can get from the Coast Guard goes far with these nations.
    Mr. Lamb. That is good. So when you talk about, like, 
trying to crack down on illegal fishing by China, are you 
talking more about training the local nations to do that 
themselves, as opposed to, like, a Coast Guard cutter going out 
there, enforcing it? Or are you talking about both?
    Admiral Abel. The ideal is that the Nation enforces their 
own sovereignty over their own waters. But these nations, there 
is a reason the Chinese are going after them. They are the most 
vulnerable. They have weak legal authorities. Their forces are 
not well positioned.
    But there also are ways--we teamed North Pacific Guard with 
the Chinese, the Russians, the Japanese, the South Koreans, the 
Canadians, and the United States. We all work together once a 
year, and it is a strange collection of people, but we all say 
we have got to stop this illegal fishing. And when you get a 
Chinese-owned, Panamanian-flagged transshipment vessel that the 
fish is already cut and palletized and frozen, and you can't 
trace it anywhere, there is a reason one in four fish bought in 
the United States could be illegal, because we just don't know.
    Mr. Lamb. Thank you, Mr. Chairman. I yield back.
    Mr. Maloney. Mr. Gallagher?
    Excuse me, Mrs. Miller?
    Mrs. Miller. Thank you, Chairman Maloney and Ranking Member 
Gibbs.
    And thank you for being here today to discuss the important 
work that the brave men and women continue to do in the Coast 
Guard every single day. You have been invaluable to my district 
in West Virginia, performing the dangerous search-and-rescue 
missions and saving lives.
    While the Coast Guard is both visible and present in my 
district, the important role that you all play in international 
waters is just as essential. I believe that it is essential 
that the Coast Guard has the resources to effectively and 
efficiently continue to perform their military and law 
enforcement duties here at home, as well as abroad.
    Along with my colleague from southwestern Pennsylvania, I 
have a couple questions that have to do with drugs. Last year I 
asked the Coast Guard Commandant, Admiral Schultz, about the 
role that the Coast Guard plays in seizing those illegal drugs 
in the Gulf of Mexico. Has anything changed in the last year 
when it comes to stopping the flow of the dangerous illegal 
drugs that are coming into our communities from the foreign 
countries?
    Admiral Abel. Well, ma'am, we are constantly adapting, 
because the enemy gets a vote. And we find these drug 
organizations to be highly adaptive, and wherever we put a 
Coast Guard package, they quickly move.
    Now flows are going outside the Galapagos. I mean, we are 
talking 500, 600 miles offshore in small vessels with a crew of 
three, open fishing boats. That is why it makes it a challenge 
to find it.
    The Caribbean, 20 percent of the flow, not as much, but a 
lot of that flow is faster. You can get from Central--you know, 
South America up to Jamaica, Dominican Republic, much faster 
than these long routes. But the bulk of the flow we are seeing 
in the Eastern Pacific goes up to Mexico. And the goal is, if 
we can catch it in bulk, we catch more than every Federal 
agency combined. And we would much rather catch it in tons than 
police departments trying to find a kilo here or a kilo there 
on the streets, much more efficient, much more impactful 
against those drug organizations when we catch it in bulk.
    Mrs. Miller. Thank you. Has the Coast Guard seen any 
changes in the types of drugs that you are intercepting?
    Admiral Abel. Well, I mentioned earlier that we are 
seeing--sometimes it is a combination load that might have 
something else mixed in it, but the bulk that we are looking at 
right now and capturing is cocaine.
    Mrs. Miller. What more can Congress do to ensure that more 
drugs are stopped from making their way into our country?
    Admiral Abel. Well, I mentioned the fact that--that 
triangle of things we need. So we need good, robust 
intelligence, and a lot of that relies on our interagency 
partners and, candidly, partner nations. Many times it is a 
partner nation that gives us a critical movement alert, which 
means drugs are moving, we think it is going there.
    So more intel, Maritime Patrol Aircraft--there is just not 
enough aircraft to be out there spotting what intel has 
indicated. And then finally, the last part of it is offshore 
presence. Seventy percent of our major cutters are the Medium 
Endurance Cutters that are my age. They were born in the 
sixties. We have got to recap that.
    So the goal would be, if we can recapitalize that fleet, 
and also the helicopters that serve on the back of them, they 
are due for replacement, as well. All three of those could grow 
with additional funding.
    Mrs. Miller. Thank you. Now I will switch gears. Last week 
the Commandant was quoted as saying that there are about 750 
monthly ship calls at U.S. ports in the Pacific, and that 
passenger vessels that had been at sea for less than 14 days 
are being detained at sea until the test period has passed.
    Is the Coast Guard receiving the data it needs to do its 
job through the notices of arrival, and from the passenger data 
being provided to the Centers for Disease Control?
    Admiral Abel. So we proactively track, anyway. So even 
before we get an advance notice of arrival, which is 96 hours 
out, we have got 3,000 vessels right now that we are tracking, 
where we think they are going. We are already geotracking--if 
it is coming from a country that may become hotter, let's say 
South Korea, we already know which vessel just came from South 
Korea. So that is the first line of defense, is keep that 
threat as far away as possible.
    Then the 96-hour advance notification. We vet the crew, the 
cargo, the ship's last five ports of call, and then we decide 
if there is any risk, and any ship has to report any sickness 
on the vessel to us, regardless of if they have been to China 
or not been to China or a hot country.
    Then we work with CDC, and we have robust captain-of-the-
port authorities, like you mentioned, to have them stay 
offshore if we need to.
    On the cargo side, we have not seen substantial risk. Those 
ships come in, we restrict the crew to whatever it takes on the 
pier to turn the ship around, put the lines over, get the cargo 
loaded, get back to sea. And they are happy with that, because 
that is how they make money.
    So we have not seen a huge threat vector, disease-wise, 
from cargo.
    Mrs. Miller. Thank you. I yield back my time.
    Mr. Maloney. The gentlewoman, Ms. Plaskett.
    Ms. Plaskett. Thank you. Thank you so much for being here. 
The information you provide is really invaluable to us, as we 
work on the needs of the Coast Guard.
    One of the things you had talked about, and I noticed my 
colleagues have all brought them up, is the interdiction of 
drugs--and particularly in the Caribbean would be my concern. 
Can you talk about the collaborative efforts, or any that you 
have had with foreign governments, particularly those island 
nations within the Caribbean in combating this?
    Admiral Abel. Yes, Congresswoman, thanks for the question.
    So, through the bilateral and multinational agreements we 
have with almost all of those islands, as our patrols come 
across a vessel, if they claim, ``I am a Jamaican vessel,'' 
that is not a hindrance to us, because we have an agreement 
with Jamaica and we say, ``Would you mind if we board your boat 
and look for safety and security violations?'' Jamaica is fine 
with that. If we stumble across drugs, then, obviously, it is a 
whole different story.
    So, number one, we don't let the nationality of the vessel, 
even if it is fabricated, to slow us down, because we have 
those relationships.
    The other thing we can do, too, is build the capacity of 
those partner nations. Meet them where they are. It could be 
just forming their own coast guard is where they need to be. It 
could be a few small vessels is what they need, outboard 
maintenance, maybe some rule-of-law training with Department of 
Justice to find how you work a case package, maybe building 
their own maritime academies so they can teach their own. The 
goal is let them patrol their waters and quell this as a team 
project in the Caribbean.
    Ms. Plaskett. So the mutual assistance programs that you 
have are probably really working well at this time?
    Admiral Abel. Yes, ma'am. Absolutely.
    Ms. Plaskett. And would you say, of the other Federal 
agencies that are operating within the Caribbean, what is your 
role, and where do you see yourself?
    Would you think you are leading the charge, in terms of how 
this is done, or are you working collaboratively?
    Are there other agencies you think that may be better 
suited to take the charge in this?
    Admiral Abel. There are a number of different task forces 
that do pull people together in various parts of the 
Caribbean----
    Ms. Plaskett. Like I know HIDTA is one.
    Admiral Abel. Yes, ma'am.
    Ms. Plaskett. Quite a bit----
    Admiral Abel. Yes, and there are a couple that are 
international, as well.
    I will say that we--the status we have, it is almost like 
the secret sauce we have is people like working with the U.S. 
Coast Guard, so we can pull together DEA, or Department of the 
Treasury, or Department of Justice folks, FBI, with their peers 
and partner nations, and make those connections.
    Ms. Plaskett. You are doing an amazing job with what 
resources you have. And we know that the Coast Guard is a 
resource-strapped agency. That does come into the cost--the 
work that you are doing internationally comes at a cost, 
domestically.
    And seeing that tradeoff, is it important for Congress to 
consider whether this is an aspect that warrants additional 
resources? Because so much of your work is handling 
internationally, in terms of your domestic front.
    Admiral Abel. Well, particularly the work that we do for 
DoD, it is interesting, the President's national security 
Presidential directive, or Memo No. 1, was rebuild the 
military. And the fact that we do not get our funding through 
DoD--DoD has seen about a 12-percent increase recently. We have 
held 2.5 to 3 percent in operating funds. Inflation is about 
1.9 percent. In essence, flat for operating funds.
    So we certainly could use some relief. We certainly like 
the new assets we are getting at the capital acquisition 
account. But certainly operating funds would help the Coast 
Guard.
    And also, any given day, 2,000 Coasties, 11 ships, 5 
helicopters, a port security unit are all working for DoD, 
about $340 million is what we get for that work. We give $1 
billion worth of work to DoD. The last time that was adjusted 
was 2002.
    Ms. Plaskett. So when you talk about the operating 
expenses, would that also include your equipment? Is that in 
there, as well?
    Admiral Abel. Yes and no, ma'am. If it is maintenance of 
the equipment, you know, you got to buy spare parts.
    Ms. Plaskett. Right.
    Admiral Abel. That would be operating funds. If it is 
buying new cutters, that is the acquisition side. And candidly, 
as we limp old cutters along, that sucks operating money for 
spare parts that we should be putting into the new 
acquisitions.
    Ms. Plaskett. And so, in the acquisition--you talked about 
the basic flat line of the operational expenses. What about 
your acquisition expenses? Have those increased proportional to 
the Department of Defense, or are they still lagging behind?
    Admiral Abel. I can get you more data. I don't have a 
comparison of DoD acquisition to Coast Guard acquisition. I 
will say that we get peaks and valleys. Certainly, we 
appreciate the generosity of the Congress as far as National 
Security Cutters, Offshore Patrol Cutters. In fact, we stepped 
up----
    Ms. Plaskett. No, don't appreciate, because I need you to 
have more, particularly in my area. We would rather you have 
more cutters. I mean, you--they are doing a great job with the 
fast boats that they have, but that is absolutely insufficient 
for the speed at which some of these drug boats and, you know, 
human trafficking going on in the Caribbean.
    Thank you. I yield back.
    Mr. Maloney. I thank the gentlewoman.
    Mr. Gallagher?
    Mr. Gallagher. Thank you, Mr. Chairman.
    Admiral, I want to follow up on a line of questioning from 
the ranking member, and turn our attention to an 
underappreciated international role of the Coast Guard that 
people sometimes forget is international, which is the Great 
Lakes. Across the lakes you are in Canada. It is a foreign 
country. They say things differently there.
    And just as there is a national security rationale for new 
icebreakers in the Arctic, there is a national security 
rationale for the Great Lakes, as well. Nearly all of the iron 
ore used in the American steel industry comes from Minnesota 
and Michigan and ships on the Great Lakes. And the lack of 
adequate icebreaking causes iron ore shipments to be stuck in 
port, instead of getting to steel mills, driving up pricing, 
and making American steel less viable in a free market.
    In the 2018-2019 winter season alone, inadequate 
icebreaking cost the region the equivalent of 860 shiploads of 
iron ore. And so I know we touched on this a little bit, but 
just to foot-stomp it, when you are making vessel acquisition 
requests of Congress, how does the Coast Guard factor the 
importance of Great Lakes icebreaking and connect it to 
national security?
    Admiral Abel. So we have set up a separate acquisition 
office that is looking at the unique icebreaking capabilities 
of the Great Lakes, which are different than what the North 
Pole and the South Pole require, sir. So we are looking at what 
is there.
    As I mentioned, it is a collection of assets that break on 
the lakes. The buoy tenders, the 140s, our Canadian partners, 
as well as the Mackinaw that is there. So all of those work 
together.
    We are taking a look at the trends of the industry. I fully 
agree with you, that trade is vital to the economic interests 
of our Nation. The economic interest of our Nation is the 
security of our Nation.
    Mr. Gallagher. And then I was pleased to see the fiscal 
year 2021 request includes a Polar Security Cutter, which I 
agree is important. Does the Coast Guard intend to request a 
new Great Lakes icebreaker, just so I understand this, after 
Congress has adequately funded the new polar icebreaker?
    Admiral Abel. Sir, I don't think we can say one or the 
other.
    Mr. Gallagher. Yes.
    Admiral Abel. Right now we are looking at the requirements 
for what the Great Lakes require. I think, once we get 
requirements scoped, then we will look at where we drop it in, 
based on the age of the Mackinaw and what the requirements are.
    But we certainly appreciate the fact that the polar 
security breaker, number 1, is paid for. Number 2 is in the 
2021 budget.
    Mr. Gallagher. And then I wanted to follow up, switching 
topics, on a question that Mr. Mast asked. And I didn't fully 
understand the response.
    Doesn't the Coast Guard have responsibility for the 
implementation of MARPOL, annex V specifically, and the 
legislation we have to implement it, the act to prevent 
pollution from ships, with respect to plastic pollution from 
ships?
    Admiral Abel. Absolutely, sir. And when our marine 
inspectors go aboard and we do boardings, we find out how do 
you handle your overboard discharge, whether it is solids, 
whether it is liquid, all of that is inspected.
    The question was, if we see something plastic in the water, 
do we report it. The answer is no, sir.
    But certainly we make sure, internationally, vessels are 
living to the international standards for the benefit of the 
whole globe.
    Mr. Gallagher. And then, to switch topics yet again, on the 
HASC side, when we talk to the Navy, we are having this very 
interesting debate about the role that unmanned ships are going 
to play in the future fleet.
    Now, I know there are different equities--Navy, Coast 
Guard--but, theoretically, unmanned surface vessels open up 
similar opportunities for the Coast Guard, as they do for the 
Navy. Can you talk a little bit about how the Coast Guard is 
thinking about unmanned technology?
    Admiral Abel. So we have pushed the envelope a little bit. 
I know we have done some unmanned aerial systems up in the 
Arctic doing search and rescue, using thermals, because it is 
easier to find a body, you know, in the cold Arctic. We have--
every National Security Cutter has unmanned system on the back 
of that. We have awarded the national contract--every one of 
those will get a UAS that is running whenever they are 
underway, a huge game-changer for on-scene presence, persistent 
presence in the drug fight.
    But we are finding those systems are used across the 
missions of the Coast Guard.
    Mr. Gallagher. But what about--so you are talking about 
unmanned aerial sensors, right?
    Admiral Abel. Yes, sir.
    Mr. Gallagher. Any unmanned----
    Admiral Abel. We are looking at some of those. Candidly, I 
don't think we would be the lead on that.
    Mr. Gallagher. Yes.
    Admiral Abel. You mentioned the Navy. We are really 
interested in what their research and development comes up 
with. We have an R&D center up in Groton, Connecticut, that 
works with their peers in DoD to find out who has got the best 
of the best, so that we can then work off of that to apply it 
to the Coast Guard.
    Mr. Gallagher. I have 15 seconds. Are you able to retain 
the cyber talent you need in the Coast Guard?
    Admiral Abel. No, sir. And we are looking to actually grow 
the cyber talent in the Coast Guard.
    Mr. Gallagher. Thank you for a succinct response.
    I yield the remaining 4 seconds.
    Mr. Maloney. I thank the gentleman.
    Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman.
    Admiral Abel, thank you for your service. Thank you for 
being here today.
    The Coast Guard, you execute a lot of missions, a lot of 
diverse missions, from drug interdiction, search and rescue, 
ICE operations, law enforcement. And you are also a very 
valuable partner to the DoD, particularly the Department of the 
Navy.
    In response to Representative Plaskett's question, you 
mentioned that you provide roughly $1 billion of defense 
readiness mission--$1 billion? Yes, $1 billion, and are 
reimbursed $340 million. That is of great concern to me, and I 
think it is of great concern to members of this committee. We 
invest a great deal in defense. I sit on the House Armed 
Services Committee, and the annual increase in defense is 
probably multiples more than your total budget.
    I want to just give you an opportunity perhaps to flesh out 
a little bit more your response to Representative Plaskett. Can 
you talk about what resources the Coast Guard is dedicating 
towards its defense readiness mission, and at the expense of 
what nondefense readiness missions, or the other missions that 
you are asked to execute?
    Admiral Abel. Well, first of all, sir, it is a tradeoff. We 
have got work we do on behalf of the Department of Defense. We 
have work we do on behalf of the Department of Homeland 
Security, and the Coast Guard on our own.
    Every single year we work with the Department of Defense. 
They do a request for resources, just like any other branch of 
the armed services. They come to us and say, ``We would like X, 
Y, and Z. Can you provide it?''
    We balance that with our domestic missions to see what we 
can afford to do as a resource constraint. We do the best to 
optimize that mix right there.
    The one thing we try to do with DoD is we try to make sure 
that whatever they are asking for is unique within the Coast 
Guard, not just another large hull. It should be a large hull 
that, because it is white, it provides this, the capability we 
bring is this, the legal authorities are different, to make 
sure that, if we do commit a resource to a combatant commander, 
it is unique to the Coast Guard, and we are the ones that can 
fill that niche.
    Mr. Brown. Now, with the publication of, about 2 or 3 years 
ago, under the current administration of the most recent 
National Defense Strategy, as we sort of, you know, turn our 
attention to refocus again on great power competition, Russia 
and China, have you--how has that impacted the trend line, in 
terms of the requests for you to execute defense readiness 
missions?
    Admiral Abel. Well, if you look at the spectrum of, you 
know, competition to conflict, we are much more over towards 
the competition side. And that is a good role for the Coast 
Guard--like I mentioned, small vessels, frequent visits. These 
countries are going to make choices of who the partner of 
choice is. We would like that to be the United States.
    So if we can play that role for DoD--we have the large 
ships, we can plug and play. We are interoperable with the Navy 
and the Marines. There is no question we could do that if time 
of war comes. But our role really is more towards the--it is 
the cooperation and the compete side, instead of the conflict 
side.
    Mr. Brown. Let me ask it this way. Again, today you 
testified $1 billion of services, $340 million reimbursement, 
you know, roughly $760 million delta. What was the delta 4 
years ago?
    Admiral Abel. Sir, I can get that number back for you. Like 
I said, the last time, the $340 million that we get reimbursed, 
was adjusted, it was 2002.
    Mr. Brown. Yes, and that is my concern. I believe the delta 
is actually growing. You are becoming a billpayer for a very 
important mission, defense readiness, but it is my 
understanding from previous hearings before this committee 
that--and perhaps you have this data, and you can either 
correct me or confirm--that the Coast Guard has got about a $2 
billion backlog. Is that about accurate?
    Admiral Abel. That would be on shore facilities alone, sir.
    Mr. Brown. Yes----
    Admiral Abel. That is without even talking helicopters and 
airplanes and ships. Every Coast Guard mission starts from the 
shore, and it is crumbling. And that includes housing for our 
families, that includes the command centers, the piers they 
come into. We need to recap the shoreside.
    And I would also say C5I. Everything is connected with a 
spinal cord, which is IT. We have got to invest in that, as 
well.
    Mr. Brown. And perhaps it is an oversimplification, but, 
you know, rough numbers, back of the envelope, if you were 
fully reimbursed in about 2--less than 3 years, you could meet 
all of your facilities' backlog requirements.
    So that is of just concern to me, I think members of the 
committee, and I really hope that we can address that in the 
combination work that we are doing on this committee and the 
House Armed Services Committee.
    And I will yield back the balance of my time, Mr. Chairman.
    Mr. Maloney. I thank the gentleman. And that concludes the 
Members' questions.
    We have a second panel today, so I am going to thank Vice 
Admiral Abel, and ask that we move to our second panel.
    Thank you, sir, for being here. We appreciate your service, 
and all you do.
    [Pause.]
    Mr. Maloney. I would like to welcome our next panel.
    Thank you all for being here. We are joined by Ambassador 
David Balton, senior fellow for the Polar Institute at the 
Wilson Center; Dr. Stephen E. Flynn, founding director of the 
Global Resilience Institute at Northeastern University; and Dr. 
Amy E. Searight, senior adviser and director of the Southeast 
Asia Program at the Center for Strategic and International 
Studies.
    I appreciate you all being here today. We look forward to 
your testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    And, as with the previous panel, since your written 
testimony has been made part of that record, we ask that you 
limit your oral testimony to approximately 5 minutes.
    With that, Mr. Balton, you may proceed.
TESTIMONY OF HON. DAVID BALTON, SENIOR FELLOW, POLAR INSTITUTE, 
 WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS; STEPHEN E. 
 FLYNN, Ph.D., FOUNDING DIRECTOR, GLOBAL RESILIENCE INSTITUTE, 
  NORTHEASTERN UNIVERSITY; AND AMY E. SEARIGHT, Ph.D., SENIOR 
   ADVISER AND DIRECTOR, SOUTHEAST ASIA PROGRAM, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Balton. Mr. Chairman, members of the subcommittee, 
thank you for this opportunity to testify.
    I spent 32 years at the Department of State. I worked very 
closely with the Coast Guard. Much of what I will tell you this 
morning is based on those experiences.
    We face considerable challenges relating to the oceans, 
challenges the United States cannot solve on its own. We need 
to engage other nations, international institutions, other 
actors. We also need to make the best use of the assets at our 
disposal. The Coast Guard is one such asset.
    I know, from personal experience, that the Coast Guard can 
and does engage successfully at the international level on a 
wide range of ocean issues. We should put this capability to 
even better use, particularly with nations with whom we have 
difficult relationships. For example, the United States and 
Russia both border the Bering Sea, home to valuable stocks of 
fish. Both nations harvest those fish. At the moment, the 
United States and Russia have difficulty working together in 
many settings.
    This is not a new phenomenon. For many years, when I led 
the U.S. side in annual fisheries meetings with Russia, the 
bilateral relationship problems eroded trust and made our work 
difficult.
    The Coast Guard, through its ability to work with its 
counterparts in the Russian Federal Border Service, often 
provided the best available means of maintaining needed 
cooperation in challenging times. The Coast Guard has developed 
a professional and dependable working relationship with Russia, 
a relationship that has survived intact, for the most part, 
even now.
    Thanks to that, we have seen very few incidents in the past 
two decades in which Russian trawlers have crossed the maritime 
boundary line to fish illegally in U.S. waters. Indeed, with 
support of the Coast Guard and other law enforcement agencies 
in the United States, we were able to sign a bilateral 
agreement with Russia in 2015 to combat illegal fishing.
    The Coast Guard also works successfully with China. Yes, 
with China. As long ago as 1993 the Coast Guard entered into a 
formal arrangement with China on joint fisheries enforcement 
operations, based on a memorandum of understanding. That MOU 
allowed Chinese fisheries enforcement officials to ride aboard 
U.S. Coast Guard cutters operating in the North Pacific Ocean. 
If a cutter came upon a Chinese fishing vessel on the high seas 
fishing illegally--for example, using a large-scale drift net--
the Chinese official could take law enforcement action against 
the Chinese vessel using the platform of the U.S. cutter.
    Due in part to initiatives such as this, large-scale drift 
net fishing in the North Pacific Ocean has subsided, and the 
need for that MOU has, accordingly, diminished. I understand 
that the Coast Guard and their Chinese counterparts are now 
considering a more comprehensive agreement to promote joint 
efforts.
    In the Arctic, the Coast Guard has played a large role, and 
could play an even larger one. The Coast Guard leads efforts to 
implement the 2011 Arctic Search and Rescue Agreement, the 2013 
Arctic Marine Oil Pollution Agreement. Both of these treaties 
commit the Arctic states to work together in responding to 
problems that are rising in greater number because of 
increasing human activity in the Arctic Ocean.
    As came up earlier, the Coast Guard also leads our 
participation in the International Maritime Organization, was 
instrumental in developing the 2017 Polar Code, a set of rules 
designed to strengthen safety and environmental security in the 
Arctic.
    In 2018 the IMO also approved a proposal developed by the 
Coast Guard with Russia to manage increasing vessel traffic in 
the Bering Strait.
    These are examples that show how the Coast Guard can 
advance our Nation's interests in a safe and secure Arctic 
Ocean.
    That said, all signs point to the need to expand this 
capacity, as the Arctic Ocean grows more accessible, and the 
need to protect U.S. interests there also increases.
    The Caribbean region presents a final illustration of the 
Coast Guard's capacity to carry out multiple missions in 
difficult diplomatic environments. The Coast Guard has 
responsibility for dealing with migrants who are trying to 
enter the United States illegally by sea. Over many years I saw 
the Coast Guard perform admirably in rescuing people attempting 
perilous ocean journeys in vessels of dubious integrity. The 
mission required Coast Guard officers to understand and 
implement the nuances of changing U.S. immigration and refugee 
policies.
    The Coast Guard can also help us address growing concerns 
about oil pollution in the Caribbean, including from Cuba. 
Given the proximity of the United States and Cuba, a major oil 
spill in the waters of either country could have serious 
consequences for the other. In the past decade the Coast Guard 
has helped to improve communication and oil spill preparedness 
and response for their Caribbean neighbors, including Cuba. 
Once again, we will need more of this in the future.
    I urge the subcommittee to support efforts of the Coast 
Guard in the international sphere. Thank you for this 
opportunity to testify. I would be pleased to answer any 
questions.
    [Mr. Balton's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Hon. David Balton, Senior Fellow, Polar 
      Institute, Woodrow Wilson International Center for Scholars
    Mr. Chairman and Members of the Subcommittee, I would like to thank 
you for this opportunity to testify in today's hearing focusing on the 
international role of the U.S. Coast Guard. My name is David Balton and 
I am currently a Senior Fellow at the Woodrow Wilson International 
Center for Scholars.
    As you may know, Congress created the Wilson Center fifty years ago 
as the official memorial to President Wilson. We serve as the nation's 
key non-partisan policy forum, fostering independent research and open 
dialogue to help guide the policy community.
    Before I joined the Wilson Center in 2018, I worked for 32 years at 
the U.S. Department of State, the last fifteen years serving as Deputy 
Assistant Secretary for Oceans and Fisheries. In that capacity, I 
participated in numerous efforts to advance our nation's interests 
relating to the oceans and the Polar Regions. During that time, I had 
very considerable interaction with colleagues in the U.S. Coast Guard. 
My testimony today draws largely on my experiences in that regard.
                     Strengthening Ocean Diplomacy
    While the world's ocean has received increasing attention in many 
quarters, the challenges we face on ocean issues are growing more 
acute. We have a responsibility to address these challenges, as the 
United States remains a critical player on ocean issues worldwide. We 
have the largest navy, extraordinary commercial and scientific capacity 
related to the ocean, and a highly developed regulatory system for 
managing the part of the ocean under our jurisdiction.
    The United States certainly cannot solve the problems of the ocean 
on our own. We need to engage other nations, international 
institutions, and other actors and stakeholders (scientists, the 
private sector, civil society, etc.). We also need to make best use of 
the assets at our disposal.
    I know from long personal experience that the U.S. Coast Guard 
serves as a valuable tool in engaging with other governments on a wide 
range of ocean issues, a tool that we should put to even better use, 
particularly with nations such as Russia, China, Cuba and others with 
whom we are experiencing significant friction in our bilateral 
relationships. I used to tell my Coast Guard colleagues that they 
should add to their 11 statutorily mandated missions a 12th mission: 
diplomacy.
    To illustrate this, here are some examples showing the Coast 
Guard's ability--and potential--to work constructively at the 
international level.
                      North Pacific and Bering Sea
    The North Pacific Ocean and the Bering Sea represent two of the 
most productive fishing grounds in the world. Many of the fish stocks 
harvested in those waters have ranges and distributions that cross 
jurisdictional lines. That is, the range of a given stock often 
includes areas under the fisheries jurisdiction of more than one 
country, or areas under national jurisdiction and the high seas, or 
both.
    Managing fisheries for such shared stocks presents numerous 
problems and requires a high degree of international cooperation, an 
often elusive commodity. Even when nations agree on measures to manage 
those fisheries, fishing vessels do not always observe the agreed 
rules. The resulting illegal, unreported, and unregulated (``IUU'') 
fishing poses a significant threat to fisheries management regimes, to 
the livelihoods of those who fish in accordance with the rules, and to 
marine ecosystems.
    We can reduce those threats by promoting international cooperation 
in fisheries law enforcement, including by strengthening the Coast 
Guard's role in this field. In the North Pacific and the Bering Sea, I 
have seen the value of Coast Guard engagement with other governments in 
cooperative efforts to do this.
    Few if any other nations have the capacity to undertake effective 
fisheries enforcement on par with ours. Developing countries, including 
the Pacific Island States that depend heavily on revenue from fisheries 
taking place within their exclusive economic zones (EEZs), certainly 
need our assistance in fisheries management and enforcement. The Coast 
Guard provides some of that assistance, including through training and 
data sharing, and could do more in this regard. Increasing such 
assistance would also benefit the United States, both directly, by 
increasing the likelihood that shared fisheries in which the U.S. 
fishing industry participates remain sustainable, and indirectly, by 
enhancing U.S. relations with the Pacific Island nations in question.
    An extraordinary percentage of U.S. fisheries exist in our EEZ off 
Alaska, much of it in the Bering Sea, a body of water that the Russian 
Federation also borders. Some of the most valuable fish stocks in that 
area, including the Eastern Bering Sea Pollock stock, have ranges that 
cross the U.S.-Russia maritime boundary line. Successful management of 
such stocks requires collaboration with Russia, including in the field 
of fisheries law enforcement.
    At the moment, the United States and Russia find themselves at odds 
over any number of difficulties in their bilateral relationship, 
resulting from such contentious issues as Ukraine, Syria, and election 
interference. This is not a new phenomenon, however. I have seen 
significant friction in the U.S.-Russian relationship over several 
decades. For many years, when I led the U.S. side in annual fisheries 
meetings with Russia, such friction eroded trust across the table and 
otherwise made our work difficult.
    The Coast Guard, through its ability to work with its counterparts 
in the Russian Federal Border Service, often provided the best 
available means of maintaining needed cooperation in challenging times. 
Over the years, Coast Guard District 17 has developed a professional 
and dependable working relationship with Russia, a relationship that 
for the most part has survived intact despite the problems alluded to 
above.
    For example, a spate of fisheries violations about 20 years ago in 
the vicinity of the U.S.-Russia maritime boundary line in the Bering 
Sea threatened to undo our ability to work cooperatively with Russia on 
managing shared stocks. Large factory trawlers repeatedly crossed from 
the Russian EEZ into the U.S. EEZ to fish illegally. Tensions mounted, 
as did the prospect of a potentially dangerous confrontation at sea.
    Thanks largely to the Coast Guard and its ability to engage 
professionally with its Russian counterparts, the United States and 
Russia dealt constructively with each other to minimize such 
incursions. I am pleased to report that, since the time of the 
incidents in the 1990s until my retirement from the State Department at 
the end of 2017, those incidents subsided almost entirely and never 
again threatened U.S.-Russian cooperation in fisheries management. 
Indeed, the United States and Russia signed a bilateral agreement to 
combat IUU fishing in 2015.
    We also have the Coast Guard to thank for its ability to work with 
China, another nation with whom the United States has had a difficult 
relationship at times. As long ago as 1993, the Coast Guard entered 
into a formal working arrangement with China on joint fisheries 
enforcement operations, based on a memorandum of understanding (MOU). 
Among other things, that MOU allowed Chinese fisheries enforcement 
officials to ride aboard U.S. Coast Guard cutters operating in the 
North Pacific Ocean. If the cutter came upon a Chinese fishing vessel 
on the high seas fishing illegally, for example with a largescale 
driftnet (a significant problem at the time), the Chinese official 
could take law enforcement action against the fishing vessel from the 
platform of the U.S. cutter.
    Due in part to initiatives such as this, largescale driftnet 
fishing in the North Pacific Ocean has also subsided. The need for that 
specific MOU accordingly diminished, such that the two sides agreed to 
allow it to lapse at the end of 2019. I understand that the Coast Guard 
and their Chinese counterparts are now discussing a more comprehensive 
agreement to promote joint efforts in combatting IUU fishing, which 
sounds like a good idea to me.
                                 Arctic
    The Arctic region has received increasing attention in recent 
years, due largely (though not exclusively) to the warming climate. As 
the Arctic Ocean becomes more accessible, the United States and other 
nations have scrambled to keep pace with developments and to manage the 
growth in human activity there.
    The Coast Guard has played a remarkable role in this connection 
over the past decade. Highlights include:
    <bullet>  The Coast Guard participated actively in the development 
of the 2011 Arctic Search and Rescue Agreement, a treaty negotiated 
under the auspices of the Arctic Council. This Agreement commits the 
eight Arctic States to work together to address potential search-and-
rescue incidents throughout the Arctic, incidents that have become much 
more likely as more people are venturing to that area. The Coast Guard 
also leads our efforts to implement this Agreement through joint 
training and exercises with the other Arctic States.
    <bullet>  The Coast Guard played an even more significant role in 
shaping the 2013 Arctic Marine Oil Pollution Agreement, another treaty 
negotiated under Arctic Council auspices. In some ways similar to the 
Search and Rescue Agreement, this pact commits the eight Arctic States 
to work together in the event of an oil pollution incident anywhere in 
the Arctic Ocean, another phenomenon that has grown more likely in 
recent years. Once again, the Coast Guard has a leading role in the 
implementation of this Agreement.
    <bullet>  The Coast Guard leads U.S. participation in the 
International Maritime Organization (IMO), and played a central role in 
developing a set of amendments to existing IMO regulations, known 
collectively as the Polar Code, designed to strengthen the safety and 
environmental security of vessels operating in the Arctic and Antarctic 
regions. The Polar Code entered into force in 2017.
    <bullet>  In 2018, the Coast Guard and its Russian counterparts 
developed and submitted to the IMO joint proposals for managing 
increasing traffic through the Bering Strait, proposals that the IMO as 
a whole have now accepted. In my view, this represents a highly useful 
first step in ensuring that vessel traffic in this area remains safe 
and secure. A large-scale shipping accident there could have disastrous 
consequences for people aboard the vessel(s) in question and for the 
productivity of the marine environment on which many people depend.
    <bullet>  The Coast Guard served as the first chair of, and remains 
our government's point agency for, the Arctic Coast Guard Forum, 
established in 2015. The forum provides a means for Arctic nations to 
collaborate on such issues as search and rescue, emergency response, 
and icebreaking. Last year, the forum successfully executed two large-
scale live exercises to enhance preparedness and circumpolar 
cooperation in the event of an incident requiring a mass rescue 
operation.

    These examples illustrate the extraordinary capacity of the Coast 
Guard to advance our nation's interests in a safe and secure Arctic 
Ocean. That said, all signs point to the need to expand this capacity 
in the future, as the Arctic Ocean continues to grow more accessible 
and the need to protect U.S. interests there grows accordingly.
    The opening of the Arctic Ocean has highlighted the need for our 
nation to have greater icebreaking capacity. I am heartened that we are 
building another large icebreaker and encourage efforts to create yet 
more U.S. icebreaking capacity in the future. I do not see these 
efforts solely as a means of ``keeping up'' with Russia and other 
nations that have more icebreaking capacity than we do. Rather, we 
simply will need more icebreaking capacity to advance our own interests 
and to fulfill our own needs in both Polar Regions, particularly in the 
Arctic.
                               Caribbean
    Although I had more limited experiences working with the Coast 
Guard on issues concerning other ocean regions, I nevertheless came 
away from those experiences with a deep appreciation of the capacity of 
the Coast Guard to carry out its multiple missions against the backdrop 
of difficult and sensitive diplomatic environments. Two examples from 
the Caribbean region demonstrate this point.
    First, the Coast Guard serves on the front line in interdicting 
migrants who are trying to reach the United States by sea, typically 
without documentation. Over the decades, I saw the Coast Guard perform 
admirably in handling the human drama of rescuing thousands of people 
from the Caribbean region attempting perilous ocean journeys in vessels 
of dubious integrity. To do so successfully also required Coast Guard 
officials to understand and implement the nuances of changing U.S. 
immigration and refugee policies.
    Second, the Coast Guard found ways, even prior to the 
reestablishment of diplomatic relations with Cuba, to work with Cuban 
authorities to address mutual concerns about oil pollution. Given the 
proximity of the United States and Cuba, a major oil spill in waters 
under the jurisdiction of either country could have serious 
consequences for the other. Working through a regional IMO arrangement 
for the Caribbean Sea, the Coast Guard played a significant and largely 
unheralded role in improving communication and oil spill preparedness 
and response capacities with our Caribbean neighbors, particularly 
Cuba.
                              IUU Fishing
    Finally, I believe we can make greater use of Coast Guard expertise 
and capabilities as the United States works with other nations to fight 
IUU fishing in all parts of the ocean. I note that the Coast Guard 
Commandant, Admiral Schultz, outlined some steps to do just that in his 
recent State of the Coast Guard address:

        Fish is an essential protein source for over 40 percent of the 
        global population, and fish stocks around the world are 
        critical to many nations' sovereignty and economic security . . 
        . The United States Coast Guard can be a global leader 
        combatting IUU fisheries by increasing partner-nation capacity, 
        international cooperation, and targeted operations.

        And, to enhance maritime domain awareness across the Pacific 
        Ocean we are fostering a partnership with Global Fishing Watch, 
        which uses cutting-edge machine learning and artificial 
        intelligence to visualize, track, and share data about fishing 
        activity in near real-time. If successful, this initiative may 
        be scaled to our fisheries enforcement efforts worldwide.

        Today, the United States holds sixteen counter-IUU fishing 
        bilateral agreements in the Pacific and West Africa. And we are 
        pursuing additional agreements to help us push back against the 
        destructive fishing practices that are leaving vast expanses of 
        the ocean and seabed in ruins . . . .

        We call upon like-minded nations across the globe to join us, 
        in publicly denouncing countries and corporations that engage 
        in IUU fishing, and enhance enforcement activities that thwart 
        this threat.

    I urge the Subcommittee to support these efforts.
                               Conclusion
    Thank you once again for this opportunity to testify. I would be 
pleased to answer any questions.

    Mr. Maloney. Thank you, Ambassador Balton.
    Dr. Flynn?
    Mr. Flynn. Thank you. Good morning, Chairman Maloney and 
Ranking Member Gibbs. It is an honor to be here today.
    This turns out to be my 30th time that I have appeared as 
an expert witness before a House or Senate hearing since the 
attacks of September 11, 2001, and at virtually all those 
hearings I have testified about how we manage transnational 
threats that have animated the creation of the Department of 
Homeland Security. And certainly the transnational threats 
remain clear and present, as the current global outbreak of 
COVID-19 is highlighting.
    At the outset I just want to say that I think the Coast 
Guard is the Nation's most underleveraged and most 
underinvested national security, foreign policy, economic 
policy, and homeland security asset.
    We talk sometimes about tradeoffs between the Coast Guard's 
domestic capabilities and resources versus its foreign policy 
or its international role. The real questions about tradeoff 
should be between what other instruments we use to advance 
national security goals, homeland security goals, economic 
security goals, and foreign policy goals. We highlighted 
already the discussion about the amount of benefit the 
Department of Defense gets from leveraging the Coast Guard, or 
the intelligence community can get from the Coast Guard, and 
yet the investments are nowhere equal.
    And so it is so, I think, critical for the debate about 
investment in the Coast Guard be put in the larger context of 
those key policy goals of America. And we are underleveraging 
and underinvesting in the Coast Guard.
    My testimony provides a bit of a sort of tour de force 
about why the Coast Guard's role is so critical in advancing 
the homeland security and national security and foreign policy 
goals, all at the same time. I particularly wanted just to 
drive home a couple of points that I tried to make.
    It is very clear that, when we are dealing with 
transnational risk, they don't pay much attention to borders. 
And so our organization of national security as water's edge 
out, and domestic security as border in doesn't work so well 
when you are trying to deal with things particularly like 
coronavirus, but also organized crime, other nefarious things 
that are working in a transnational realm.
    And so this ability that the Coast Guard has to be able to 
operate in the international, in the space in between, in the 
maritime realm, and, ultimately, in the domestic, is important. 
But it is the relationships that the Coast Guard has built at 
the State, local, Federal level with Territories, with the 
means to be able to interact with their foreign counterparts 
overseas. It is the relationships with the private sector in 
the global maritime industry that its authorities and its 
capabilities provide. There is no other national asset that we 
have that can essentially move across jurisdictions, move 
across functions.
    As Admiral Abel laid out at the outset, it is an Armed 
Force, it is a law enforcement agency, it is a humanitarian 
agency, and it is a regulatory agency. Find something else in 
the U.S. Government that is all of that. And in the effort of 
undertaking those missions, women and men of the Coast Guard 
know they can't get any of it done without working well with 
others. And so it is one of the unique national assets we have 
that plays well with others, that actually collaborates and 
cooperates.
    So when we look at what we ask it to do, and the resources 
we provide it, that delta is just, frankly, reckless and 
negligent on the part, I think, of the American people. They 
are not getting the benefit they could. And Congress I urge, 
and the administration I urge, to make the investment that the 
Service could provide.
    I want to also sort of provide particular emphasis on the 
Caribbean in the Arctic region. As we know, China is making a 
significant investment in the Caribbean. And the U.S. 
investment has gone down significantly, and that is especially 
true of the Defense Department's presence in the Caribbean.
    The Caribbean is--of course, still remains a challenging 
area from transnational crime. But when you look at what has 
happened with Venezuela, and the migrants that have flown out 
of Venezuela, and ability to absorb that, let's also imagine 
what is likely to happen when the cruise industry essentially 
goes dark and COVID-19 shows up in the Caribbean islands, a 
region where 40 percent of the island's GDP is tied tourism. 
What kind of disruption that will be.
    And it turns out the singular agency that actually has 
operational presence across the Caribbean is the United States 
Coast Guard.
    And it also deals with this crazy thing that we have in the 
Caribbean, which is, of course, that Puerto Rico and the U.S. 
Virgin Islands, as Territories, are viewed as a domestic 
entity, and often are not included in our Caribbean-based 
efforts and strategy. But again, the Coast Guard straddles 
those two worlds, so it is able to, essentially, manage and 
have a Caribbean-wide approach.
    And in terms of the Arctic, while the Department of Defense 
has now woken up a bit, and realizes that is a strategic area 
to play, they really can't play up there. And the Coast Guard 
has the presence, has the authorities, has the relationships 
with most of the Arctic nations. We should be investing in the 
Coast Guard.
    I make a final pitch here about managing the transnational 
risk of terrorism in the global trade and transportation system 
has to be done in a global way. And again, the Coast Guard has 
unique authorities, unique reach, but especially its 
relationships and ability to work with the global maritime 
industry is so critical to getting us ahead of those 
challenges. And we have still, again, underinvested in that 
effort. Thank you.
    [Mr. Flynn's prepared statement follows:]
                                 <F-dash>
   Prepared Statement of Stephen E. Flynn, Ph.D., Founding Director, 
          Global Resilience Institute, Northeastern University
    Chairman Maloney, Ranking Member Gibbs, and distinguished members 
of the House Coast Guard and Maritime Transportation Subcommittee. 
Thank you for inviting me to provide testimony on the international 
role of the U.S. Coast Guard. This marks the 30th time I have appeared 
as an expert witness before a House or Senate hearing since the attacks 
of September 11, 2001. Virtually all the hearings that I have testified 
before have dealt with the challenge of managing the transnational 
threats that animated the creation of the U.S. Department of Homeland 
Security. Those transnational threats remain clear and present as the 
current global outbreak of COVID-19 is highlighting.
    Terrorists, organized criminal syndicates, pandemics, invasive 
species, and extreme weather events pay little heed to national 
borders. Yet, our national security establishment is set up to manage 
these threats beyond our borders while domestic agencies are charged 
with managing them at and within our borders. Inevitably, this division 
of labor creates suboptimal responses to transnational threats and 
challenges. This is playing out in real-time with the challenge of 
aligning protocols for managing the quarantining of passengers infected 
by the COVID-19 in the international cruise industry that carries 30 
million passengers a year.
    In my testimony today, I will contend that the authorities and 
capabilities that allow the U.S. Coast Guard to perform both domestic 
and international roles translate into a unique national asset for 
bridging homeland security and national security. The Coast Guard is a 
uniformed service of the U.S. Armed Forces, a law enforcement agency, a 
humanitarian agency, and a regulatory agency. There is no other entity 
within the U.S. government that is like it. It is also woefully 
underfunded to carry out its many missions, limiting the Coast Guard's 
ability to contribute to the safety and well-being of the American 
people. I hope this hearing will help to shine a light on the 
shortsightedness of inadequately investing in the Coast Guard and 
energize an effort by Congress and the Administration to reverse this 
neglect.
    As one of nation's six uniformed services that make up the U.S. 
Armed Forces, the Coast Guard is closely connected with the Department 
of Defense to include being integrated into the leadership of U.S. 
Northern Command and U.S. Southern Command, and conducting operations 
under U.S. Central Command in the Persian Gulf. Along with the U.S. 
Navy and Marine Corps, the Coast Guard is integral to the U.S. maritime 
strategy outlined in the 2007 release of A Collaborative Strategy for 
21st Century Seapower. Coast Guard Intelligence is one of the 16 
members of the U.S. intelligence community.
    Coast Guard law enforcement activities involve counter-narcotics, 
migrant control, combatting human-trafficking, fisheries enforcement, 
and port security on a global scale. The Coast Guard is the world's 
premiere maritime search and rescue organization and responder to oil 
spills. The agency also oversees the management of U.S. waterways to 
include icebreaking and maintaining the aids to navigation system. 
Additionally, it is responsible for regulating the U.S. maritime 
industry and recreational boating to include the licensing and 
documentation of mariners, inspections of vessels, and the teaching of 
boating safety courses. The U.S. Coast Guard is a key participant at 
the International Maritime Organization where the service plays a 
leadership role in developing and maintaining a comprehensive 
regulatory framework for worldwide shipping.
    The breadth of the Coast Guard's missions highlights what makes it 
such a distinctive organization. Its responsibility for such a diverse 
set of missions has been as a result of a 230-year evolution since the 
nation's first Secretary of Treasury Alexander Hamilton led to its 
founding as the Revenue Marine in 1790. As national needs connected to 
the maritime realm evolved, Congress consistently looked to the Coast 
Guard to address them. While the service is best known for its 
operational prowess and ``can-do'' spirit highlighted in its heroic 
rescues, drug seizures, and response to major oil spills, an 
underappreciated but arguably equally important asset is the Coast 
Guard's ability to collaborate with a diverse group of local, state, 
regional, state, and international players, both private and public, 
and with civil society and non-profit organizations. Coast Guard women 
and men understand that prosecuting their missions requires 
collaborating with other uniform service members, their international 
counterparts, law enforcement agents, local and state public officials, 
regulators, and the general public.
    This mix of diverse missions, operational nimbleness, and 
organizational culture that embraces collaborations translate into the 
Coast Guard serving as the ideal agency for wrestling with the 
complexity of 21st Century transnational challenges. Importantly, it 
not just what the Coast Guard does each day, but how it goes about 
doing it that makes the service a unique national asset.
    In making the case to Congress and the Administration for increased 
levels of funding and support for the Coast Guard's international role, 
I will outline three examples of where the service has distinctive 
capabilities that can directly contribute to the safety and well-being 
of the American people that have not been sufficiently leveraged. 
First, is the service's ability to deal with threats before they arrive 
at our borders. Second, is the Coast Guard's ability to support U.S. 
foreign policy and national security priorities in the Caribbean and 
Arctic regions. Third, is its ability to engage the global maritime 
industry to manage the ongoing terrorism risk to the global maritime 
transportation system.
     Managing Transnational Risks Requires Pushing Borders Outward
    Border control efforts involve managing risk associated with two 
distinct activities. First, there are efforts to police the flow of 
goods, people, and conveyances into the 328 authorized land and 
maritime ports-of-entry throughout the United States. Second, there are 
efforts to police America's vast maritime and land frontiers between 
those ports-of-entry. Lately, the 1,933 miles of the U.S.-Mexico border 
is commanding much of the public's attention. But the length of that 
border is 1/50th of the size of 95,471 miles of U.S. shoreline where 
there are ample opportunities to gain illicit entry into the United 
States. Importantly, one-third of 3,987 miles of the International 
Boundary line of the U.S.-Canadian border, excluding Alaska, lies on 
the waterways of the Great Lakes and Saint Lawrence Seaway.
    If you spend time at U.S. borders and ports-of-entry as I have, you 
will find ample evidence of illicit activities from the smuggling of 
narcotics and migrants, to trade fraud and shipments of counterfeit 
goods. However, making the border the locus for dealing with these 
risks is a recipe for failure. This is because transnational threats do 
not originate at America's national borders. Instead, much like we are 
witnessing with COVID-19, they infiltrate global trade and travel 
networks. Limiting these risks is accomplished best by the combination 
of embedding controls into those networks, and putting in place a 
layered-defense strategy that starts as close to the point of origin as 
possible, and then engages in detection and interception efforts prior 
to arrival at U.S. borders. Ideally this is done in partnership with 
other jurisdictions. For instance, port security measures at overseas 
ports-of-loading can mitigate the risk of a security breech involving 
vessels destined for the United States. For obvious reasons, it is much 
more desirable to manage a risk that could endanger the U.S. population 
before it arrives in U.S. waters that after it has arrived in a U.S. 
port. The COVID-19 situation involving the cruise ship Grand Princess 
and the Port of San Francisco and Oakland proves this rule.
    Another central challenge for border control efforts is how to deal 
with what is commonly known as the ``balloon effect.'' As the United 
States' nearly half-century of combatting illicit drugs from Latin 
America has highlighted, if interdiction efforts at the land border are 
not balanced with similar efforts in the maritime domain, organized 
criminal networks will travel the path of least resistance and shift 
their efforts to maritime smuggling. This clearly has implications for 
the border control outcomes associated with building a physical barrier 
along the U.S.-Mexican border. If that investment is made at the 
expense of a commensurate effort to adequately patrol the U.S. maritime 
domain, drug and migrant smugglers will go around the wall by 
exploiting the diminished capacity to safeguard America's long maritime 
borders.
    As the nation's lead maritime border agency, the Coast Guard's 
international reach helps in advancing border control in important 
ways. By working closely with their international counterparts, the 
Coast Guard is able to help improve the capacity of other nations to 
better secure their own ports and waterways. In addition, these 
international collaborations facilitate intelligence sharing which is 
key to successful interdiction efforts. At the tactical level, by 
patrolling the Caribbean Sea and along the Latin American Pacific 
coast, the Coast Guard is in a position to detect and intercept illicit 
shipments long before smugglers can take advantage of America's long 
and largely unprotected coastal shorelines to land their contraband.
 Advancing a Regional Approach to Managing Transnational Risks in the 
  Caribbean and Arctic will Benefit from Investing in the Coast Guard 
                       Playing a Leadership Role
    Managing risks that arrive in America's front yard--the Caribbean--
and in the Arctic involves multilateral coordination and operations in 
regions that include the U.S. domestic territories of Puerto Rico and 
the U.S. Virgin Islands and the state of Alaska. This poses a special 
challenge for the U.S. foreign policy community since the U.S. 
Department of State only works with foreign nations and domestic 
agencies have limited roles and presence outside U.S. borders. For the 
Department of Defense, the Caribbean Area of Responsibility is split 
between the U.S. Northern Command and the U.S. Southern Command. The 
one U.S. entity that has the authorities and operational presence for 
seamlessly operating in both these regions, both domestically and 
internationally, is the U.S. Coast Guard. Given the growing array of 
risks with primarily a maritime nexus in the Caribbean and the Arctic, 
the U.S. government should be looking to invest in expanding and 
leveraging the Coast Guard's presence to play a leadership role in 
executing U.S. foreign policy and national security goals in these two 
regions.
The Role of the Coast Guard in the Caribbean Region
    There is a critical need for a collaborative effort to build 
Caribbean regional capacity to promote resilience in the face of 
mounting security, economic, and ecological risks. Hurricane Dorian in 
2019 and Hurricanes Irma and Maria in 2017 highlighted the growing 
vulnerability of the Caribbean island nations to extreme weather. The 
high dependency on tourism (40 percent GDP regionwide) makes Caribbean 
economies particularly vulnerable when disasters strike. In the months 
ahead, this is likely to include the disruptions associated with the 
COVID-19 outbreak. The outflow of refugees from Venezuela have 
highlighted the limited capacity of the region to absorb displaced 
populations. The ongoing exploitation of the region by drug 
traffickers, organized criminal networks, and for money laundering 
exacerbates the risks of violence, corruption, terrorism, and 
governmental and societal instability. The stepped-up investment from 
China throughout the region reflects its ongoing geo-strategic value. 
Benign neglect of the Caribbean region risks increasingly malignant 
consequences for the United States.
    The Caribbean region is made up of 13 sovereign states and 17 
dependent territories. For the United States, managing the 
transnational risks across this vast region is a multijurisdictional 
challenge highlighted by the fact that the U.S. territories of Puerto 
Rico and the U.S. Virgin Islands are outside the writ of the U.S. State 
Department. Yet, it clearly makes sense to include them in regional 
initiatives that aim to strengthen U.S. standing in the Caribbean vis-
a-vis China, and improve the region's capacity to be more self-
sufficient in managing their shared risks. One particularly promising 
initiative to which the U.S. Coast Guard should be assigned a prominent 
leadership role is the recently launched U.S.-Caribbean Resilience 
Partnership.
    Formally inaugurated on April 12, 2019 at U.S. Southern Command 
headquarters in Miami, the U.S.-Caribbean Resilience Partnership 
(USCRP) is a collaborative effort involving 18 Caribbean countries to 
build regional capacity to better manage disaster response and recovery 
and to promote resilience. The inaugural working group meeting of USCRP 
took place in Bridgetown, Barbados on Oct 23-24, 2019 with a focus on 
four areas of shared interest: (a) improving ``whole of community'' 
risk awareness, (b) strengthening hazard mitigation and climate 
adaptation efforts, (c) bolstering coordination in regional disaster 
response, and (d) enhancing planning for post-disaster recovery 
including economic recovery.
    Current U.S. and international regional engagement, to include 
security assistance, economic development, humanitarian assistance and 
disaster response, can potentially be tied directly to supporting the 
shared goals of the U.S.-Caribbean Resilience Partnership. The result 
would be to provide these efforts with greater strategic coherence 
while enhancing their security and diplomatic impact. This is because 
the emphasis on building greater resilience unites and catalyzes the 
engagement of the public and private sectors, NGOs, and key elements of 
civil society across the Caribbean region. This initiative also aligns 
extremely well with the Coast Guard's missions and would benefit from 
leveraging the good relations the service enjoys with the island 
nations throughout the region. Congress and the Administration should 
provide dedicated funding to the U.S. Coast Guard to partner with the 
U.S. State Department in advancing the goals of the U.S. Caribbean 
Resilience Partnership.
The Role of the Coast Guard in the Artic Region
    While the state of Alaska makes the United States a major Arctic 
nation, for too long the region has been treated as a minor national 
security priority. In recent years, Russia and China have been 
dramatically out-investing the United States in enhancing their 
capabilities to operate in the Arctic environment. At stake is the 
Arctic's rich natural resources that climate change is making 
increasingly accessible. The major transpacific and transatlantic 
maritime shipping routes to the west and east coasts of the United 
States transit the approaches to the Arctic Ocean making this area 
strategic to the U.S. economy. A warming climate is also elevating the 
likelihood of seasonal Arctic sea routes for maritime traffic.
    In the face of the growing competition with China and Russia, the 
U.S. Department of Defense has developed an Arctic Strategy most 
recently updated in June 2019 that outlines ``three strategic ways in 
support of the desired Arctic end-state:'' (1) Building Arctic 
awareness, (2) enhancing Arctic operations, and (3) strengthening the 
rules-based order in the Arctic. The U.S. Coast Guard has a 
longstanding multi-mission presence in Alaska and the Arctic. 
Additionally, the service has played a leadership role in the 
international organizations that are responsible for setting the rules 
for the Arctic maritime. The Coast Guard has close working 
relationships with six of the seven other Arctic nations: Canada, 
Denmark, Iceland, Norway, Finland, and Sweden. Investing in the Coast 
Guard's capacity to expand its role in the Arctic, to include the rapid 
construction of new icebreakers, should be the cornerstone of the 
nation's strategy for the region.
Managing Transnational Risks within the Maritime Transportation System 
  Requires Close Collaboration with Global Private Industry that the 
               Coast Guard is Ideally Positioned to Lead
    The United States is a maritime nation whose economy relies on the 
smooth operation of a global maritime transportation system that moves 
90 percent of the world's cargo by volume. The maritime transportation 
system is not only overwhelmingly owned and operated by private 
industry, but virtually all the major companies that move cargo and 
operate port facilities are non-U.S. companies. Indeed, among all the 
critical infrastructure sectors upon which American depend for their 
safety, security, and prosperity--energy, telecommunications, finance, 
etc.--the maritime transportation system is the only one where foreign-
owned companies play the dominant role.
    I believe that the most significant risk to the maritime 
transportation system is its continued vulnerability to being exploited 
or targeted by terrorists armed with a nuclear device such as a dirty 
bomb. This assessment is based on my 30 years of operational and 
research experiences in and around the port, transportation, and trade 
community. This includes my service as a Coast Guard officer from 1982-
2002, as the Principal Advisor for the Bi-partisan Congressional Port 
Security Caucus from 2003-2004, as a member of the National Research 
Council's Marine Board from 2003-2010, as an independent consultant to 
major ports and the maritime industry, and currently as a professor and 
director for the Global Resilience Institute at Northeastern 
University.
    My assessment holds despite the post-9/11 efforts applied to this 
risk. As we have witnessed with the COVID-19 outbreaks aboard the 
Diamond Princess and Grand Princess and the impact that is having on 
the global cruise industry, what on its face is a localized threat, can 
quickly translate into far-reaching and cascading consequences for the 
trade and transportation system.
    The national security and economic stakes associated with the dirty 
bomb risk could not be higher. This is because such an attack would 
almost certainly lead in its aftermath to the global disruption of the 
maritime transportation system and international commerce. A terrorist 
attack involving a dirty bomb, originating from an overseas source and 
arriving in the U.S. in an intermodal container, would trigger port 
closures around the United States. This would set off a series of 
cascading disruptions throughout the global supply system that would 
lead to billions of dollars of daily losses and cause gridlock across 
the intermodal transportation system within 10 days to 2 weeks. Since 
the U.S. government currently has no comprehensive plan for managing 
the global recovery of this system in the aftermath of a major security 
breech, it would almost certainly require several weeks to restore the 
flow of commerce. This is because it would take time for public 
officials to reassure a traumatized American public in order for U.S. 
ports to be reopened. It would also take time to clear cargo backlogs 
in transportation hubs and distribution centers around the world, as 
well as to reposition transportation conveyances so that they can 
service their normal scheduled routes. The economic impact of such an 
incident would likely spawn a worldwide recession.
    This risk can be effectively managed, but the key is advancing the 
appropriate security safeguards and resilience planning on a global 
scale. The U.S. Coast Guard has the requisite domestic and 
international authorities and relationships with the international 
maritime industry, maritime nations, and key international 
organizations such as the International Maritime Organization, to make 
this happen. Congress and the Administration need to give the service 
the mandate and resources to provide the needed leadership.
    The way forward is for the U.S. government to shift its emphasis 
from one that focuses primarily on policing U.S.-bound cargo. Instead 
it needs to approach the security of the global supply system as a 
necessary requirement for all nations in meeting their shared 
international commitments for preventing the proliferation of nuclear 
weapons and materials and combatting organized crime. Next, it needs to 
enlist the active participation of the private industry that owns and 
operates port terminals and transportation conveyances that move supply 
chains around the planet. There is a business continuity and enterprise 
resilience imperative associated with the dirty bomb threat that should 
animate the same kind of close collaboration between the private and 
public sectors that we saw in the aftermath of the foiled October 2010 
cargo planes bomb plot involving explosives hidden in printer 
cartridges shipped from Yemen. Third, the U.S. government needs to 
step-up efforts to advance the use of new technologies, tools, and 
protocols on a global scale that can provide for the near real-time 
visibility and accountability of the contents and location of cargo, 
thereby bolstering the security and resilience of trade flows. Such a 
system would be neither too costly, nor difficult to deploy. Based on a 
study that I have done with my colleagues at the University of 
Pennsylvania's Wharton School, embedding the capacity within the global 
supply system to routinely capture non-intrusive images of a 
container's contents and incorporating them into the data flow that 
underpins the current risk management process would cost about $15 per 
container.\1\ This is less than the aviation security fee I paid for my 
domestic flight from Boston to Washington to participate in this 
hearing.
---------------------------------------------------------------------------
    \1\ Nitin Bakshi, Noah Gans & Stephen Flynn, ``Estimating the 
Operational Impact of Container Inspections at International Ports'' 
Management Science, 57:1 (Jan 2011): 1-20.
---------------------------------------------------------------------------
    Specifically, I believe that the global supply system security and 
resilience can be significantly advanced by the U.S. Coast Guard 
playing an international role in undertaking five actions that I 
recommended in a 2017 report on Global Supply System Security and 
Resilience underwritten by a research grant from the MacArthur 
Foundation: \2\
---------------------------------------------------------------------------
    \2\ A New International Framework for Bolstering Global Supply 
System Security and Resilience (Boston: Northeastern University, Oct 
2017) https://repository.library.northeastern.edu/files/neu:cj82r8265
---------------------------------------------------------------------------
    1.  Linking the currently disconnected: (a) global counter-
proliferation mandate set by UN Security Council Resolution 1540, and 
(b) the global port security requirements embedded in the International 
Ship and Port Facility Security (ISPS) code so that nations abide by 
uniform global standards and procedures that ensure that containerized 
cargo is not wittingly or unwittingly being used to transport 
prohibited nuclear materials and contraband.
    2.  Inviting the world's major port operators to actively partner 
with the U.S. government and the governments of other maritime nations, 
the International Maritime Organization, supported by the International 
Atomic Energy Agency, and the World Customs Organization, in 
establishing recommended guidance to be placed within part B of the 
ISPS Code, for uniform, performance-based standards for non-intrusive 
inspection (NII) equipment to be used in maritime terminals.
    3.  Creating the means for the world's major port operators to 
provide the data collected by non-intrusive inspection equipment to 
government officials at both the port of loading and the port of 
arrival as requested. This includes securely sharing and storing all 
non-intrusive inspection data for an agreed upon time period.
    4.  Authorizing bonded-third parties to partner with governments to 
address and resolve alarms generated by the NII equipment when they 
occur.
    5.  Allowing port operators to levy an estimated $15 to $20 per 
container cost of implementing these actions as a part of the 
authorized Terminal Security Charge that supports investments to comply 
with the ISPS Code.
                               Conclusion
    The transnational risks to the United States associated with the 
maritime realm continue to grow. As the current global disruption 
highlighted by the COVID-19 outbreak makes clears, the stakes for U.S. 
national security and economic security associated with better managing 
these risks could not be higher. Yet the investment in the primary 
maritime agency most able to lead U.S. government response to these 
risks--the U.S. Coast Guard--has not grown in a commensurate fashion. 
Indeed, Congress and the Administration have woefully underinvested in 
this service to the determinant of the current and future safety of the 
American people.
    The very name of the Coast Guard may, in part, be contributing to 
this neglect--for many it conjures up an image that the service has 
almost exclusively a domestic role. But since the 1790s, when its 
predecessor organization the Revenue Cutter Service was deployed to the 
coast of North Africa to confront the Barbary Pirates, the Coast Guard 
has always had an international role. Transnational risks by their very 
definition confound efforts that attempt to neatly distinguished 
between national security and homeland security. Tackling these risks 
also requires an extraordinary degree of collaboration with not just 
governments, but the private sector, and civil society as well. The 
Coast Guard is unique in its ability to lead such collaborative efforts 
and bridge national security and homeland security. Indeed, the service 
deserves as much public recognition for the contributions it has made 
and is poised to make to U.S. national security, foreign policy, and 
facilitating international commerce, as the fame the Coast Guard has 
rightly earned from its proud history of operating through surf and 
storm to save lives.

    Mr. Maloney. Thank you, Dr. Flynn.
    Dr. Searight?
    Ms. Searight. Chairman Maloney, Ranking Member Gibbs, and 
other distinguished members of the subcommittee, thank you for 
the opportunity to testify today.
    My testimony will focus on the U.S. Coast Guard cooperation 
with Southeast Asia littoral nations, which face tremendous 
challenges in the maritime domain. And because of this, they 
represent a real strategic opportunity for Coast Guard 
cooperation.
    The strategic importance of Southeast Asia to the United 
States is often underappreciated. Southeast Asia lies at the 
heart of the Indo-Pacific, with vital sea lanes flowing right 
through it, including the South China Sea, where one-third of 
global shipping passes; the Malacca Straits, which is one of 
the most crowded waterways in the world; as well as the Sulu 
Sea, which is a hotbed of transnational crime and terrorism.
    Aside from its geostrategic location, the region provides 
critical ballast for a rules-based order through its regional 
organization, the Association of Southeast Asian Nations, or 
ASEAN, which has led the creation of a security and economic 
architecture that convenes the major powers and provides some 
rules of the road for good behavior. ASEAN norm-setting and 
ASEAN-led regional dialogues provide somewhat of a bulwark 
against China's growing assertiveness in the region.
    Because of Southeast Asia's pivotal geostrategic role in 
the Indo-Pacific, it has become the fulcrum of emerging U.S.-
China strategic competition, and yet U.S. engagement with 
countries in the region does not always match their strategic 
significance.
    A fully integrated and well-resourced Indo-Pacific strategy 
for the United States would place a high priority on maritime 
cooperation with the littoral states of Southeast Asia to help 
them address the serious challenges they face in the maritime 
domain. These challenges include, first and foremost, 
protecting their sovereignty and their ability to monitor 
maritime activities, access natural resources, and protect the 
marine environment within their Territorial waters and EEZs, 
all of which are under growing threat from China's increasing 
maritime assertiveness.
    Vietnam, the Philippines, Indonesia, and Malaysia, in 
particular, have seen growing Chinese encroachment into their 
Territorial waters and around disputed maritime claims, as 
China seeks to aggressively assert its expansive claims under 
its nine-dash line.
    China relies heavily on its coast guard, along with its 
paramilitary maritime militia, to project power and assert its 
claims through gray-zone tactics that seek to blur the line 
between civilian and military forces, and engage in coercive 
actions while remaining under the threshold of military 
response. China has been rapidly expanding and modernizing its 
coast guard. And today the Chinese Coast Guard is the world's 
largest, boasting more hulls in its fleet than all of the 
regional neighbors, combined.
    Chinese Coast Guard ships have played a lead role in 
several recent gray-zone skirmishes in Southeast Asia, 
including the political row sparked by the incursion of several 
Chinese Coast Guard cutters escorting Chinese fishing vessels 
into Indonesia's EEZ off the coast of the Natuna Islands in 
December, and the standoff between Vietnam and China over the 
Vanguard Bank, and recent harassment of Malaysia's oil and gas 
exploration activities in waters on its extended continental 
shelf. These episodes demonstrate the new normal in the South 
China Sea, in which new energy development by Southeast Asian 
states anywhere within the nine-dash line will be met by 
persistent intimidation from Chinese law enforcement and 
paramilitary vessels.
    Chinese maritime coercion in the South China Sea grabs most 
of the headlines, but the countries in the region face a number 
of other maritime-related challenges that are very high on 
their political agendas. And at the top of the list is illegal, 
unreported, and unregulated fishing, IUU, which causes huge 
economic losses to these countries.
    There are other sorts of transnational crime, from wildlife 
and human trafficking, to narcotics, and piracy that are also 
very important, and real problems in the Territorial waters of 
these countries.
    And this region suffers disproportionately from large-scale 
maritime natural disasters--the typhoons and cyclones in the 
region are only intensifying, and growing more frequent with 
climate change. And so disaster response capabilities are also 
at the top of their list.
    Faced with the growing challenges of Chinese maritime 
assertiveness and other threats in the maritime domain, 
Southeast Asian countries have been doing a lot recently to 
build up their coast guards. And I go in my written testimony 
into some detail about the various steps that these countries 
have taken.
    And in seeking to boost their coast guard capabilities, the 
U.S. Coast Guard is a partner of choice. Indeed, the U.S. Coast 
Guard has played an important role in helping Southeast Asian 
coast guards build capabilities through a variety of capacity-
building programs, training and educational opportunities, and 
equipment transfers, in particular for the countries of the 
Philippines, Indonesia, and Vietnam. And I do go into some 
detail again in my written testimony about the various ways 
that the Coast Guard has assisted the coast guards of these 
countries.
    Of all the tools in the U.S. foreign policy toolkit, the 
U.S. Coast Guard is perhaps the most valuable and yet 
underutilized in cooperation with Southeast Asia. The U.S. 
Coast Guard is uniquely positioned to engage with Southeast 
Asian counterparts and advance U.S. national security interests 
for several reasons.
    First and foremost, Chinese threats to these countries' 
maritime sovereignty is the largest security challenge that 
they face, which has led them to really seek the expansion and 
deployment of their coast guards to counter Chinese gray-zone 
tactics. And as these countries increasingly rely on their 
coast guards, U.S. Coast Guard engagement and capacity building 
with these partners is incredibly valuable.
    Because the United States does not take sides in maritime 
disputes with different claimants, American diplomatic efforts, 
as well as military options to deal with Chinese maritime 
coercion, are, to some degree, limited. The U.S. Navy, 
conducting frequent and regularized FONOPS to challenge 
excessive claims of China and other states is a very useful 
tool to underscore the U.S. commitment to freedom of 
navigation.
    However, FONOPS alone are not sufficient as a strategy to 
help these countries counter Chinese maritime aggression, 
because it does not directly address the immediate challenges 
they face in terms of coercion against fishing, oil 
exploration, and other lawful activities within their waters.
    Mr. Maloney. Dr. Searight, if I could ask you to----
    Ms. Searight. Yes.
    Mr. Maloney [continuing]. Wrap up your prepared remarks, so 
we can move to Members' questions, and then we would be happy 
to give you a chance to elaborate on that, in particular, in my 
own. But if you have any concluding remarks, feel free to 
conclude.
    Ms. Searight. No, I would just reiterate that I think, you 
know, there are various reasons why the U.S. Coast Guard is 
uniquely valuable as a tool of engagement with these countries 
on core issues of importance to them. And so I think it is 
really important to consider the Coast Guard in light of an 
effective Indo-Pacific strategy. Thank you.
    [Ms. Searight's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Amy E. Searight, Ph.D., Senior Adviser and 
      Director, Southeast Asia Program, Center for Strategic and 
                         International Studies
    Chairman Maloney, Ranking Member Gibbs, and other distinguished 
members of the Subcommittee, thank you for the opportunity to testify 
before you. The strategic importance of Southeast Asia to the United 
States is often underappreciated. Southeast Asia lies at the heart of 
the Indo-Pacific, and vital sea lanes of communication that connect the 
Indian Ocean to the west with the Pacific Ocean to the east flow right 
through the region. These critical waterways include the South China 
Sea where one third of global shipping passes, the Malacca Straits 
which is one of the world's busiest waterways, as well as the Sulu Sea, 
which is both a hotbed of transnational crime and the focus of emerging 
regional cooperation in the form of joint patrols conducted by 
Indonesia, Malaysia, and the Philippines. Aside from its geostrategic 
location, the region provides critical ballast for a rules-based order 
through its regional organization, the Association of Southeast Asian 
Nations, or ASEAN, which has led the creation of regional security and 
economic architecture that convenes the major powers of the region and 
helps establish ``rules of the road'' for good behavior. ASEAN norm-
setting and ASEAN-led regional dialogues provide somewhat of a bulwark 
against China's growing assertiveness in the region. Because of 
Southeast Asia's pivotal geostrategic role in the Indo-Pacific, it has 
become the fulcrum of emerging U.S.-China strategic competition, and 
yet U.S. engagement with countries in the region does not always match 
its strategic significance.
 Maritime challenges faced by Southeast Asian littoral states: Chinese 
                           grey-zone coercion
    A fully integrated and well-resourced Indo-Pacific strategy for the 
U.S. would place a high priority on maritime cooperation with the 
littoral states of Southeast Asia to help them address the serious 
challenges they face in the maritime domain. These challenges include, 
first and foremost, protecting their sovereignty and their ability to 
monitor maritime activity, access natural resources, and protect the 
marine environment within their territorial waters and EEZs--all of 
which are under growing threat from China's increasing maritime 
assertiveness. Vietnam, the Philippines, Indonesia and Malaysia in 
particular have seen growing Chinese encroachment into their 
territorial waters and around disputed maritime claims, as China seeks 
to aggressively assert its expansive and excessive sovereignty claims 
under its nine-dash line, which lays claim to about 90% of the South 
China Sea.
    China relies heavily on its coast guard, along with its 
paramilitary maritime militia, to project power and assert its maritime 
claims through grey-zone tactics that seek to blur the line between 
civilian and military forces, and engage in coercive actions while 
remaining under the threshold of a military response. China has been 
rapidly expanding and modernizing its coast guard and today the Chinese 
Coast Guard (CCG) is the world's largest, boasting more hulls in its 
fleet that those of all regional neighbors combined. The CCG has 260 
offshore patrol ships over 500 tons, including two massive 12,000 ton, 
165-meter cutters that far outclass all other coast guard ships and 
navy vessels in Southeast Asia.
    Chinese Coast Guard (CCG) ships have played a lead role in several 
recent grey-zone skirmishes in the region, including the political row 
sparked by the incursions by several CCG cutters escorting Chinese 
fishing vessels into Indonesia's EEZ off the Natuna Islands in 
December, and the standoff between Vietnam and China over the Vanguard 
Bank. My colleagues at the Asia Maritime Transparency Initiative (AMTI) 
at CSIS recently reported on a ``dangerous, ongoing game of chicken'' 
involving at least two CCG vessels leading an effort to harass and 
intimidate Malaysian oil and gas exploration activities on the extended 
continental shelf claimed by both Malaysia and Vietnam. These episodes 
demonstrate the ``new normal'' in the South China Sea, in which ``new 
energy development by Southeast Asian states anywhere within the nine-
dash line will be met by persistent, high-risk intimidation from 
Chinese law enforcement and paramilitary vessels.'' \1\
---------------------------------------------------------------------------
    \1\ https://amti.csis.org/malaysia-picks-a-three-way-fight-in-the-
south-china-sea/
---------------------------------------------------------------------------
   Other maritime challenges: illicit activities at sea and disaster 
                                response
    China's maritime coercion in the South China Sea grabs most of the 
headlines and focuses the attention of U.S. policymakers and 
strategists, but governments in the region also face a spectrum of non-
traditional security challenges linked to the maritime domain that 
often rise to the top of their policy agendas. At the top of the list 
are fish. The South China Sea is one of the most productive commercial 
fisheries in the world, supporting the livelihood of millions of 
Southeast Asians fisherman and those in related industries. Illegal, 
unreported and unregulated fishing (IUU) cause huge economic losses for 
these countries. It also contributes to the rapid depletion of fish 
stocks and declining biodiversity, causing perhaps irreparable damage 
to the marine ecosystem. China's massive fishing fleet, supported by 
its Coast Guard, paramilitary maritime militia and naval forces, is a 
major contributor to the IUU problem, but fishing vessels from other 
regional neighbors are also involved. IUU vessel catches are estimated 
to be over one third of reported catches in Southeast Asia. Indonesian 
President Joko Widodo has made confronting IUU fishing a top political 
priority, with his government putting the value of Indonesia's stolen 
catch at $20 billion a year.
    Other forms of transnational crime, from trafficking to piracy, 
continue to challenge the maritime law enforcement capabilities of 
Southeast Asian governments. Maritime trafficking routes run throughout 
Southeast Asia and serve as a conduit for illegal trade flowing between 
China, Africa, and Southeast Asia itself. A recent UN report 
highlighted how transnational organized crime groups are expanding 
``aggressively'' in Southeast Asia, generating hundreds of billions in 
illicit revenue and posing a destabilizing force in the region. 
Methamphetamine use is exploding across Southeast Asia, along with a 
large heroin trade that combine for illicit annual revenues of between 
about US$ 40-70 billion for the drug trade. Human and wildlife 
trafficking remain serious and large-scale problems, both within the 
region and to and from destinations in China and Africa. Although 
piracy has declined overall in key waterways like the Malacca Straits, 
kidnappings-for-ransom and other maritime attacks, largely carried out 
by affiliates of the Islamic State (IS), continue to plague the waters 
of the Sulu Sea, despite increased maritime cooperation between the 
Philippines, Malaysia, and Indonesia.
    The region also suffers disproportionately from large-scale 
maritime natural disasters brought on by typhoons and cyclones, which 
are intensifying in their impact with the warming waters of the ocean. 
``Super typhoons'' like Typhoon Haiyan, Cyclone Pam and Cyclone Winston 
devastated parts of the Philippines and Pacific Islands, causing high 
death tolls and requiring large-scale relief operations. These super-
charged storms are becoming more frequent, requiring governments to 
improve their ability to carry out coordinated humanitarian relief 
efforts for those affected.
                 Southeast Asia's Coast Guard build-up
    Faced with the growing challenges of Chinese maritime assertiveness 
and the broad range of other maritime-related threats, maritime 
Southeast Asian countries are responding by expanding the role of their 
coast guards and building up their capabilities. The littoral states of 
Vietnam, the Philippines, Malaysia, and Indonesia have been most 
focused on raising the profile of their coast guards and modernizing 
their capabilities, although most still lack the scale and 
sophistication needed meet their broad mandates and deter Chinese 
aggression.
    Vietnam has the largest Coast Guard fleet in Southeast Asia, 
reflecting its focus on deterring Chinese challenges to its 
sovereignty. The uptick in clashes with China over disputed territories 
and China's growing reliance on its Coast Guard to patrol contested 
waters and assert claims has led Vietnam to sharply increase 
investments in its coast guard. Along with renaming the Vietnam 
Maritime Police as the Vietnam Coast Guard (VCG) and separating it from 
the navy, Vietnam has commissioning four 4,300 ton patrol vessels, 
which will be the largest coast guard vessels in Southeast Asia, 
building on a surge in total tonnage across the board, rising from 
20,500 to 35,500 from 2010-2016. The United States, Japan and Korea 
have transferred vessels to Vietnam in recent years, with the U.S. 
transferring a Hamilton-class U.S. Coast Guard cutter in 2017, a total 
of 18 metal shark patrol boats, and another transfer of a U.S. Coast 
Guard cutter planned in 2020.
    The Philippines has also initiated a buildup of its Coast Guard, 
although its role has softened somewhat under President Duterte as he 
seeks closer ties with China by downplaying tensions in the South China 
Sea. Duterte has supported the development of the Philippines Coast 
Guard (PCG), allocating relatively large budgets and calling for more 
ships and personnel for the PCG. In 2019, the Coast Guard began 
recruiting 4,000 new personnel, and is planning for an additional 6,000 
new recruits in 2020, which will result in a 23,000-strong PCG, more 
than doubling its size from a few years ago and far surpassing the 
14,000 member Philippine navy. The pace of acquisitions of vessels for 
the PCG has also surged under both the Duterte and Aquino 
administrations, including ten new 44-meter patrol boats from Japan; 
two 92-meter offshore patrol vessels from Japan; four 24-meter fast 
boats, and an 84-meter, 1400 ton offshore patrol vessel built in France 
and recently delivered to the PCG, which is now the largest vessel in 
its fleet. Duterte's ``fondness'' for the Coast Guard is explained in 
part by his desire to de-escalate maritime tensions with China by 
replacing grey hulls with white hulls to police the Philippines 
territorial waters and having them operate under softer ``rules of 
engagement'' with Chinese coast guard and fishing vessels when 
incidents occur with Filipino fishermen.\2\ This runs counter to the 
trend in the region that has Vietnam, Indonesia, and Malaysia seeking 
to expand the use of their coast guards to increase presence and assert 
maritime claims in the face of growing Chinese incursions.
---------------------------------------------------------------------------
    \2\ Observers have noted that in its current operations the PCG 
seems more intent on enforcing violations of Filipino fishermen rather 
than aggressive actions by Chinese fishing vessels.
---------------------------------------------------------------------------
    Indonesia lags behind its neighbors in developing a coast guard, 
although under President Jokowi efforts have been underway to build 
one. The Jokowi government has been focused on rationalizing its 12 
different entities responsible for civilian maritime security and 
establishing a coast-guard-like agency, known by its acronym BAKAMLA, 
meant to synergize national efforts among the patchwork of civilian 
maritime agencies. However as a ``coordinating body,'' BAKAMLA has had 
to rely on the assets and personnel from other civilian and naval 
entities and coordinate efforts rather than lead on maritime law 
enforcement. BAKAMLA fields a fleet of old refurbished naval ships that 
are hardly adequate to secure and patrol the waters of is vast 
archipelago. However the incursions of Chinese Coast Guard ships in the 
waters surround the Natuna Islands last December have galvanized the 
Jokowi administration to focus anew on enhancing the capacity and 
strengthening the bureaucratic position of BAKAMLA, with President 
Jokowi declaring his vision of having BAKAMLA evolve into a full-
fledged Indonesian coast guard, entrusted with the authority to secure 
the country's maritime territory.
    In line with the trend of other Southeast Asian countries, Malaysia 
officially renamed its Maritime Enforcement Agency the Malaysian Coast 
Guard in 2017, and has also rapidly expanded its capacity in recent 
years. Its largest patrol boats are a pair of Japanese Coast Guard 
cutters transferred in 2017, and it is building three 83-meter Damen 
patrol boats expected to be commissioned in 2021.
U.S. Coast Guard cooperation and capacity-building with Southeast Asian 
                                partners
    The U.S. Coast Guard (USCG) has played an important role in helping 
Southeast Asia's coast guards build capabilities and capacity through a 
variety of capacity-building programs, training and educational 
opportunities, and equipment transfers.
    Coast guard cooperation with the Philippines offers a great 
example. U.S. assistance to the Philippines has included training and 
education, which has surged under the Duterte administration. Over the 
last three years an average of 60 PCG officers have been sent to the 
United States to participate in coast guard-related training, while 
more than 1,500 PCG personnel were trained within the Philippines in 
various courses taught by USCG personnel.\3\ Last year the USCG 
participated in two maritime exercises with the PCG, using each of its 
two National Security Cutters that were deployed in the Indo-Pacific 
under the operational control of the Navy's 7th Fleet. In May the USCG 
cutter Bertholf participated in search-and-rescue exercises with the 
PCG near Scarborough Shoal and then made a port call to Manila, the 
first visit of its kind in seven years. In October the USCG cutter 
Stratton participated in the annual Sama Sama exercise near disputed 
waters in the Spratley islands, and made a port call to Palawan. This 
was followed a few weeks later by a visit to Manila from U.S. Coast 
Guard commandant Admiral Karl Schultz for a series of engagements. The 
U.S. government has funded the Philippines National Coast Watch Center 
(NCWC), designed as an interagency hub for maritime domain awareness 
which opened in 2015, and last year USCG training teams helped the PCG 
stand up the first phase of a planned $3 million law enforcement 
training and maintenance facility that will greatly expand the PCG's 
capacity to train its workforce and sustain its equipment.
---------------------------------------------------------------------------
    \3\ https://thediplomat.com/2019/06/what-is-the-us-coast-guards-
role-in-the-indo-pacific-strategy/
---------------------------------------------------------------------------
    In addition to the Philippines, Indonesia and Vietnam have been 
priority countries for the USCG Security Sector Assistance since at 
least 2015. With Indonesia, the focus has been supporting the 
organizational development of the Indonesian Coast Guard, BAKAMLA, and 
enhancing the technical skills and professional development of its 
workforce through educational partnerships, reciprocal visits by USCG 
mobile training teams and BAKAMLA personnel, and other engagements.
    Last year, the USCG partnered with BAKALMA on a multilateral 
engagement for regional coast guards on IUU fishing and drug 
trafficking under the Southeast Asia Maritime Law Enforcement 
Initiative (SEAMLEI). BAKALMA hosted the workshop and training 
exercise, with participation by Cambodia, Malaysia, Thailand, and 
Vietnam in addition to Indonesia. USCG also participates regularly in 
the annual Southeast Asia Cooperation and Training (SEACAT) exercises 
that bring together regional navies and coast guards from across 
Southeast Asia to promote interoperability in order to better 
coordinate, communicate and counter illicit activities at sea.
    Finally, U.S. Coast Guard officers serving as liaisons in the U.S. 
Embassies in the Philippines and Vietnam have been tremendously 
valuable in fostering engagements and identifying opportunities for 
closer coast guard cooperation between the United States and these 
countries.
      Increasing USCG focus on Southeast Asia and the Indo-Pacific
    The U.S. Coast Guard's recent moves to step up engagement with 
Southeast Asia and other partners in the Indo-Pacific, in particular 
the Pacific Island countries, have been strongly welcomed and point 
towards and even larger role that the USCG can play in support of a 
Free and Open Indo Pacific strategy. Although security sector 
assistance and training cooperation have been important features of 
USCG cooperation with Southeast Asian partners for at least a decade, 
the recent high level of engagement and increasingly visible and 
frequent bilateral and multilateral coast guard engagements have been 
notable. The deployments of two National Security Cutters for long 
tours (ten months in 2019) in the Indo-Pacific theater under the 
operational command of the Navy's Seventh Fleet is another very 
encouraging development.
    The U.S. Coast Guard is a uniquely positioned to engage with 
Southeast Asian counterparts and advance U.S. national security 
interests for several reasons. First and foremost, Chinese threats to 
these countries' maritime sovereignty is the largest security challenge 
that they face, which has led them to focus on expansion and deployment 
of their coast guards as a counter to Chinese grey-zone tactics. As 
these countries increasingly rely on their coast guards, U.S. coast 
guard engagement and capacity-building with these partners offers an 
important and still relatively underutilized tool for U.S. 
policymakers. Because the United States does not take sides on maritime 
disputes among the different claimants, American diplomatic efforts as 
well as military options to deal with Chinese maritime coercion are to 
some degree limited. The U.S. Navy conducting frequent and regularized 
Freedom of Navigation Operations (FONOPS) to challenge excessive claims 
of China and other states is a very useful tool to underscore the U.S. 
commitment to the principle of freedom of navigation and to demonstrate 
the resolve of the U.S. military to fly, sail, and operate wherever 
international law allows. However FONOPs alone are not sufficient as a 
strategy to help these countries counter Chinese maritime aggression. 
As important as this signal of resolve may to regional partners, it 
does not directly address the immediate challenges of Southeast Asians 
facing maritime coercion against fishing, energy exploration, and other 
lawful activities within their waters. A highly skilled, well equipped 
and professionalized coast guard is one of the most important 
instruments these countries can deploy the face of these challenges. 
U.S. coast guard assistance can contribute substantially to their 
ability to monitor their waters and begin to mitigate Chinese coercion.
    Second, the capability gaps remain large, not just because of the 
scale of the CCG and paramilitary forces and their coordinated and 
aggressive tactics, but also because of the myriad of other maritime-
related challenges these regional coast guards face and the vastness of 
their maritime domains, making their mandate very challenging even in 
the best of times. The Philippines for example has 7,000 islands and 
36.7 thousand kilometers of coastline, equivalent to one-tenth the 
world's coastline. Indonesia's challenge is even greater, with a vast 
archipelago of over 70,000 islands and a coastline of 54 thousand 
kilometers. The increase in tonnage of the coast guard fleets in 
maritime Southeast Asia and the growth of personnel and 
professionalization of the workforce is laudable, but coast guard 
capacity remains insufficient to meet the growing demands they face in 
Southeast Asia. U.S. Coast Guard capacity-building, training, transfer 
of equipment, and other U.S. resources have a huge potential role to 
play in helping to narrow this gap.
    Third, coast guard cooperation is seen as a comfortable ``safe 
space'' for countries like Vietnam and Duterte-era Philippines where 
naval cooperation remains sensitive.
    Finally, the U.S. coast guard is ideally positioned to focus on 
enforcing a rules-based order in the Indo Pacific, which is at the core 
of a successful U.S. Indo-Pacific strategy. The USCG can work with 
regional coast guards on a whole range of skills, professional 
development and capacity building, all of which help these countries 
police their territorial waters and EEZs, and work with regional 
counterparts to counter transnational threats by sharing information 
and working collaboratively in maritime enforcement operations. By 
boosting the capability to enforce the rules in areas of great interest 
to these countries, including IUU fishing, countering illicit 
activities that take place on the seas, and dealing with piracy and 
other maritime-related threats, regional coast guards can contribute to 
regional stability and promote regional cooperation, which in turn can 
help strengthen regional solidarity in ways that may help keep Chinese 
maritime assertiveness in check.
    Of course, the U.S. Coast Guard is limited in how much it can 
expand cooperation with Southeast Asia and other Indo-Pacific partners 
due to its core homeland security mission, competing global priorities 
and constraints on its resources, including the size of its budget, its 
fleet, and perhaps most importantly the size and training requirements 
of its personnel. However from the perspective of an Indo-Pacific 
national security strategy that puts Southeast Asia and the challenge 
of Chinese maritime coercion at the center, the prospect of increasing 
U.S. Coast Guard cooperation and engagement with regional coast guards 
offers a big strategic opportunity for the United States, one that I 
hope Congress can support and resource.
    Mr. Maloney. I appreciate that. And we will now move to 
Members' questions for 5 minutes each. I will begin by 
recognizing myself.
    Let's just pick up right there, Dr. Searight. So would you 
say a word, please, about what we should be doing in Southeast 
Asia, the South China Sea, that we are not?
    And if you could, say, in particular, a word about Vietnam, 
specifically Vanguard Bank, and also the Philippines. And with 
respect to the Philippines, I am curious about the role the 
Coast Guard can play in an area--obviously, we understand the 
importance of the island formations and the Spratly Islands, 
and the rest. But also with respect to the different perception 
President Duterte has of the Coast Guard versus, say, the rest 
of the United States military.
    Ms. Searight. Yes, the Philippines is an excellent example, 
because under Duterte, of course, he has sought warmer ties 
with China, and he has downplayed conflict with China, various 
tensions in the South China Sea.
    And he has also, of course, sought some distance between 
the United States and our military alliance.
    But he really favors the Coast Guard, in part because he 
sees it as a de-escalatory mechanism for dealing with, you 
know, various incidents in Territorial waters. So he has 
boosted the Coast Guard, and that has offered an opportunity 
for the U.S. Coast Guard to offer training, both in the 
Philippines and educational opportunities here in the United 
States.
    There has been a, you know, a number of articles that--of--
excess defense articles, equipment that have been provided to 
the Philippines, et cetera.
    So, in terms of your--the broader question, though, what 
can the United States do in the South China Sea, I mean, our 
options are limited because, you know, we do not take a 
position. The United States does not take a position on the 
claims, the various claimants. And really, the--you know, 
whereas the Navy, conducting FONOPS and doing various naval 
engagements, is certainly important to boost the capabilities 
of these partner countries, these countries are relying more 
and more on coast guards to counter the white hulls of China.
    And so that--the best--really, I think the best tool that 
we have in our toolkit is to help them build up coast guard 
capabilities and make them into professionalized, well-
equipped, and well-trained forces that can project presence and 
deal with a variety of challenges on the maritime domain.
    Mr. Maloney. And that would be equally true with respect to 
our growing relationship with Vietnam and situations like the 
Vanguard Bank, is that right?
    Ms. Searight. Yes, absolutely. And when it comes to 
Vietnam, there is still a lot of sensitivity about too much 
military cooperation with the United States. They are concerned 
about China's reaction to doing too much too soon.
    Mr. Maloney. The Coast Guard provides an opportunity----
    Ms. Searight. And the Coast Guard is a less sensitive area.
    Mr. Maloney. I appreciate that.
    Ms. Searight. Yes.
    Mr. Maloney. But because I have limited time, let me turn 
to you, Dr. Flynn. So let's just go up to 30,000 feet. So let's 
say we were going to properly resource the United States Coast 
Guard. Let's say we lived in a world--just this morning we have 
heard about $2 billion. We know about that, and the backlog of 
shoreside infrastructure. We know about $700 million, annually, 
of unreimbursed expenses from DoD.
    What does a fully resourced Coast Guard look like, in your 
view?
    And if you could be specific, that would be great, in terms 
of where you would add additional resources.
    Mr. Flynn. The great strain----
    Mr. Maloney. We are spending about $11 billion--just to 
calibrate people--we are spending about $11 billion now. It is 
about 1.5 percent of U.S. military expenditures in a $700 
billion budget, a pretty big bang for the buck, a bunch of 
statutory missions.
    What should that budget be? What should we resource it at? 
If you could, help us with that, please.
    Mr. Flynn. We should be working towards doubling----
    Mr. Maloney. Over what period of time?
    Mr. Flynn. The next decade.
    Mr. Maloney. Doubling in a decade?
    Mr. Flynn. In a decade, yes.
    Mr. Maloney. And where would you put that additional $11 
billion?
    Mr. Flynn. Well, really----
    Mr. Maloney. Are you including the backlog of shoreside 
infrastructure in that under reimbursements, or is that in 
addition to that?
    Mr. Flynn. Yes, well----
    Mr. Maloney. Did you get----
    Mr. Flynn. I have a----
    Mr. Maloney [continuing]. The $7 billion if you just 
reimbursed, right?
    Mr. Flynn. So I would say, yes, double--you got to clean 
the backlog up here.
    But it really is across the Service's missions. It is this 
multimission capability, relationships, again, it has at the 
domestic, international, law enforcement--so you don't want to 
do this as a--pick a--just pointy-end-of-the-sword piece of it, 
or just in a particular geography. It is the overall capacity 
of the Service that creates such a powerful national asset. And 
it is why the Service has such good standing and strong 
standing with other countries, because it deals with the full 
range of challenges, whether it is in the Caribbean or in 
Southeast Asia.
    But as we certainly look to the Arctic, just the need to 
invest into at least three icebreakers, the needs we talked 
about on the Great Lakes, the further icebreaking capability--
--
    Mr. Maloney. Right----
    Mr. Flynn. You know, and from economic policy and all the 
rest of it here, those are the terms we should be talking 
about, not in 5, 7 percents.
    And overall, it is minuscule from the kinds of resources we 
have been willing to invest in our national security 
capabilities, and certainly in our intelligence capabilities. 
We just haven't been putting the Coast Guard in that mix.
    Mr. Maloney. I appreciate that, sir. And I couldn't agree 
more.
    And just by one data point that I think people might find 
useful, Russia currently has 46 icebreaking vessels, I believe, 
with 12 more on the way. The United States Coast Guard has two, 
one large and one medium-sized, with a handful on the way.
    Russia, just to calibrate people, has an economy the size 
of the State of New York. It is approximately $1 trillion GDP. 
We are a $20 trillion economy. And it is shocking, given the 
emerging opportunities and challenges and national security 
threats from the Arctic that we don't properly resource that 
mission.
    But I take your point about the underinvestment in, I 
believe you said, the most underleveraged and underinvested 
asset we have. And I really appreciate your testimony on that. 
A lot of us would like to work on that issue.
    Mr. Gibbs?
    Mr. Gibbs. Thank you,
    Dr. Flynn, after 9/11 the United States and much of the 
world updated its port security infrastructure and the 
framework under which that security infrastructure was 
regulated. There was discussion at the time on whether those 
updates and initiatives were focused too narrowly on responses 
to terrorist attacks, or whether they met the broader 
resiliency need of our ports and supply chains that depend on 
those ports.
    It appears that the coronavirus response might pressure 
that--the system. Do you believe that the current port safety 
and security regimes in the United States provide a level of 
resiliency necessary to protect our ports and the supply chains 
that rely on the ports against the spread of coronavirus?
    Mr. Flynn. No.
    Mr. Gibbs. I kind of figured you might say that.
    You know, it is just amazing, the conversation we are 
having here. When I think where--what we are asking the Coast 
Guard mission what to do. We have them off the coast of Africa. 
We have them in the South China Sea. We have them in the 
Arctic, and, of course, the Caribbean, and in both our Great 
Lakes, and also, of course, our ports on the east and west 
coasts.
    And your discussion just now about how much money it would 
take, it just amazes me.
    The relationship that the Coast Guard has with DoD, how do 
you see that? Is it strained, or is it a good working 
relationship? Or is it, you know, the Coast Guard is treated 
like the second child, or I don't know how you want to say it.
    Mr. Flynn. I think----
    Mr. Gibbs. Stepchild.
    Mr. Flynn [continuing]. If you talk to anyone in the 
operational part of our armed services----
    Mr. Gibbs. I--go ahead.
    Mr. Flynn. If there is--if you talk to anyone in the 
operational part of the armed services, they are overwhelming 
fans of the Coast Guard, if they know the Coast Guard. It is 
the budget people that are a little bit of a challenge.
    Mr. Gibbs. OK.
    Mr. Flynn. And they are very good at hanging on to 
resources for DoD, not so good at spreading the resources when 
they are getting capability out of the Coast Guard. But this is 
how disconnected this is.
    You know, we spend more money on protecting the Port of San 
Diego than all the other commercial west coast ports combined, 
because it is force protection, and it is a rounding error for 
DoD to say, all right, we have got to step up our port 
security. But for L.A.-Long Beach, Oakland, San Francisco, 
Richmond, Seattle-Tacoma, we spend less on port security for 
those ports than we are spending----
    Mr. Gibbs. Combined?
    Mr. Flynn [continuing]. On a single port--yes.
    And then further, we deploy the Coast Guard to do force 
protection for the fleet from L.A.-Long Beach to San Diego to 
escort it in and out.
    Now, DoD is getting an important service that is a vital 
national security interest for us, for it to be able to project 
power. But again, as a tradeoff, we are trading off investing 
in our own security, and then the capacity of the Service to be 
able to be out in front of something like the coronavirus, and 
managing with the merchant marine, and all the kind of 
capabilities there that require--you are always robbing Peter 
to pay Paul in the Coast Guard when, in fact, the need for it 
is being well recognized, operationally. It is not being well 
recognized by--as resources.
    Mr. Gibbs. And I know in your testimony you referred to the 
Caribbean, and also the challenges up in the Arctic. Obviously, 
the Russians are eating our lunch up there, and I assume the 
Chinese are trying to do the same. You know, we don't even have 
a port close to the Bering Strait, right?
    Mr. Flynn. No, it is--and the needs of--the investment in 
the Coast Guard to provide that presence is an order of 
magnitude less than it often takes to get--for DoD assets, and 
you get all this other multimission capability, as well.
    And you get an agency that is used to dealing with the 
domestic. So the State of Alaska, which has very good relations 
with many of the local communities, because there are Coast 
Guard women and men who are living in those communities, and 
they are relationships with all the Arctic nations, Canada, 
and----
    Mr. Gibbs. Well, what is the----
    Mr. Flynn. And so you have leveraged that, and yet we are 
looking at the money--national security as entirely separate 
from homeland security. And when we look at homeland security, 
we are overwhelmingly looking at the border, and the Coast 
Guard just sort of falls away as a----
    Mr. Gibbs. Are----
    Mr. Flynn. As a----
    Mr. Gibbs [continuing]. International agreements in the 
Arctic up with Canada, what is that situation, the status with 
Canada, our working relationship? Does Canada have enough 
capacity to make up some of this deficit, or----
    Mr. Flynn. There is, I think, a real willingness on the 
part of the Canadian Government to work very closely with the 
U.S. Coast Guard on additional Arctic presence.
    You know, as we know, we have freedom of navigation issues 
and others up there. But done in a collaborative way to engage, 
both recognize--our country and theirs--recognize the Chinese 
and the Russian, particularly, presence presents a real 
challenge to the security, economic security, as well as both 
countries.
    So there is opportunity, but we have to bring some 
resources to the party. The Canadians are making an investment 
with a much smaller GDP than ours, and, you know, they should, 
they are a true Arctic nation. But we are, as well. Alaska is a 
big chunk of the Arctic, and our sea lanes, whether they come 
from transpacific, transatlantic, come with great circle routes 
right through the Arctic Ocean as, essentially, the--Chinese 
and Russia have more presence there. It is extraordinary that 
the Department of Defense has not woken up and taken that on as 
a higher national security priority.
    Mr. Gibbs. I am glad to--thank you, and I yield back.
    Mr. Maloney. I thank the gentleman. And just to put some 
gloss on that point, it is interesting to note that the closest 
point China has to the Arctic is 900 nautical miles, and yet 
they have a more aggressive presence in the region than we do.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman. I apologize I wasn't 
here for the Coast Guard portion. I will be submitting 
comments, questions for the record to the Coast Guard.
    Is it Dr. or Ms. Searight? I have questions for you, but 
you answered them. They were along the lines of the unique 
capability the Coast Guard has in Southeast Asia that is 
different, say, from our U.S. Navy, and I think you answered 
that adequately for me. That is fine.
    I do have a question for Dr. Flynn and Mr. Balton, 
Ambassador Balton--is that right? Yes, I can't see that far 
anymore. So--bigger print on the name tags.
    The issue of U.S.-Canada. So my concern--I have a lot of 
concerns. One is about the Arctic. But we share a water border 
with Canada in Washington State. So British Columbia and U.S.-
Canada. So the questions I have are really less maybe 
strategic, and more about that particular relationship, 
especially as it impacts the management of the waters, as that 
impacts the Southern Resident killer whales.
    So Canada has a--I forget what they call it--like, a whale 
plan to deal with ensuring shipping doesn't interfere, as best 
they can, with migratory routes of the Southern Resident killer 
whale, introducing increased regulations in the event of 
increased oil transport through the Salish Sea, through the 
Gulf Islands, and outside of the San Juan Islands.
    And I am wondering what kind of cooperation can we and 
should we expect the U.S. to provide Canada so that we are 
comanaging across the boundary, as opposed to just relying upon 
Canada to manage that, manage that set of issues.
    Dr. Flynn?
    Mr. Flynn. I think the key--I think, with our relationship 
with the Canadians in the Pacific Northwest, as it is in the 
Atlantic, as well as along the Great Lakes, is a willingness to 
share. And so, if they have some extra capacity, we can 
leverage some of theirs. And if we have some extra capacity on 
the--our side of the border here, we can play those. And so we 
are willing, I think, to look at it portfolio versus purely 
one-on-one.
    An area there, I think, there is real need and opportunity 
that I think the Coast Guard, working with its Canadian 
counterparts can be quite helpful, is an area with--concern 
that I have--is when we have the major Cascadia quake, the 
impact on the Port of Vancouver, and on Seattle-Tacoma, and 
potentially, depending on how the quake works, all the way down 
into Oregon.
    You need close cross-border collaboration for managing--if 
what--what assets you have, where can you direct resources. So 
things like Jones Act and a whole series of other sort of 
challenging issues that could evolve when you are trying to 
respond and recover are things that require good planning and 
engagement in advance.
    And if you find issues where you have real common 
interests, like the recovery post a major earthquake, where, if 
there is going to have to be shared assets across the Cascadia 
region, then some of the issues where there is real tension, 
perhaps, because, you know, we are not quite in alignment on 
some of the ways we look at whaling or other things, you can 
start to get some movement in those areas.
    So, again, I think a unique strength of the Coast Guard is 
they can look at that through that sort of comprehensive lens, 
not just as a single agency looking at it purely as an 
environmental issue or purely as a security or law enforcement 
issue. You bring all the issues in play, and you use it to get 
the best outcome. And so--but more work needs to be done in 
planning for that inevitable disruption, what it will do to the 
port infrastructure.
    You know, the Northwest really is an island infrastructure 
for most of the rest of the Nation's critical infrastructure. 
It is true of southern California, as well. And so the sea is 
where you are going to be able to manage your response and 
recovery. And we have got to think through very carefully how 
we have all the capacity we can, and do it in the context of 
our Canadian neighbor, as well.
    Mr. Larsen. Yes.
    Ambassador Balton?
    Mr. Balton. Congressman, the question you are asking is not 
really about the Coast Guard, though. If your concern is 
cooperating with Canada to protect marine mammals or to manage 
shared fisheries in the Northwest, we are talking mostly NOAA, 
some Department of State--I worked in that space a lot.
    But I would echo what Dr. Flynn was saying. There is a high 
degree of cooperation on both coasts with Canada. There is a 
willingness to share, including sharing data. So I think you 
couldn't ask for a better neighbor in that one respect, yes.
    Mr. Larsen. Yes. So--and who is best equipped here to 
answer any--sorry, oh, well--answer my next question on the 
second round, as we come up on my time. Thank you, I yield 
back.
    Mr. Maloney. I thank the gentleman. That completes the 
first round. I have no questions at this time, and neither does 
the ranking member. So you may continue, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Maloney. For an additional 5 minutes.
    Mr. Larsen. Yes. That might be a--again, getting back to 
some of the testimony, some of the written testimony about the 
Bering Sea and North Pacific, and IUU, what--the written 
testimony comes across a little bit too much like everything is 
great. But in talking with the fisheries folks in my State, 
there is a little more--perhaps a little more conflict between 
the U.S. and Russia than reflected in the testimony.
    So I am wondering if you have any thoughts on what more 
needs to be done on IUU when it comes to the fisheries in the 
North Pacific and Bering Sea.
    Yes?
    Mr. Balton. Excuse me, Congressman, sorry.
    Mr. Larsen. The chair didn't remind everyone to turn their 
phones off before we started?
    [Laughter.]
    Mr. Balton. Sorry, my bad.
    Not everything is wonderful. The relationship between U.S. 
and Russia has problems even in the fisheries space.
    That said, in the Bering Sea it is in the interest of both 
countries to prevent illegal fishing. And there is a fairly 
high degree of cooperation, even now, thanks largely to the 
Coast Guard in the Bering Sea. We don't have a lot of fishing 
vessels coming over from the Russian side to fish illegally in 
U.S. waters. That used to happen in the mid-1990s. It has not 
happened very much since, thanks largely to the Coast Guard.
    There is also some better sharing of science. And frankly, 
the Russian science on fisheries has gotten better in the last 
generation. I have seen that, as well.
    The Russians fish all over the world, though, and are not 
necessarily a force for good. They don't police their vessels 
the way we do, especially far from home. And as fisheries start 
moving north of the Bering Strait into the Arctic Ocean, I 
worry about the sustainability issues there, and our ability to 
cooperate with Russia on those.
    Mr. Larsen. You say as fisheries begin to move north 
because of the warming water?
    Mr. Balton. Yes.
    Mr. Larsen. Yes, yes.
    Dr. Flynn, anything to add?
    Mr. Flynn. [No response.]
    Mr. Larsen. Do you have anything to add, Dr. Flynn? Sorry.
    Mr. Flynn. I really don't. I don't have the kind of real 
expertise to lend to that.
    Mr. Larsen. All right.
    Dr. Searight? All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Maloney. I thank the gentleman. Seeing no further 
questions from the Members, I would thank each of the witnesses 
for your testimony here today. We really do appreciate your 
appearance. And it has been very helpful to the committee in 
its work.
    I would ask unanimous consent that the record of today's 
hearing remain open until such time as the witnesses have 
provided answers to any questions that may have been submitted 
to them in writing, and further ask unanimous consent that the 
record remain open for 15 days for any additional comments or 
information submitted by Members or witnesses to be included in 
the record of today's hearing.
    Without objection, so ordered.
    If no other Members have anything to add, then the 
subcommittee stands adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              

  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Maloney.
    The United States Coast Guard has unique authorities, international 
relationships, and Service culture that make it a crucial part of our 
national security system.
    These authorities, relationships and the Service's culture also 
allow it to undertake a significant role in combatting the 
transnational crime organizations that bring drugs and illegal 
immigrants into the United States.
    I look forward to hearing the witnesses' views on how we can 
strengthen our efforts to combat human and drug trafficking into the 
United States.



                                Appendix

                              ----------                              


Question from Hon. Sean Patrick Maloney to Vice Admiral Daniel B. Abel, 
           Deputy Commandant for Operations, U.S. Coast Guard

    Question 1. During the hearing you mentioned that the Coast Guard 
would provide the cost of outfitting a SCIF on an Offshore Patrol 
Cutter. Please provide that an update of that cost.
    Answer. A response was not received at the time of publication.

 Questions from Hon. Bob Gibbs to Vice Admiral Daniel B. Abel, Deputy 
              Commandant for Operations, U.S. Coast Guard

    Question 1. The Fast Response Cutter and its parent craft have 
proven to be reliable, flexible vessels for use throughout North 
America, in non-continental U.S. areas, and throughout the world. Has 
the Coast Guard looked at international uses of the FRC beyond its use 
in PATSWFOR? For training of foreign Coast Guards and Navies which have 
coastal patrol responsibilities? For use by nations with which we have 
reciprocal defense agreements where interoperability is important?
    Answer. A response was not received at the time of publication.

    Question 2. The Coast Guard's unique position as the only armed 
service with law enforcement authority allows it to assist in or 
conduct many international operations, and its expertise in near 
coastal maritime safety allow it to provide training and work 
cooperatively with the Navies of smaller nations. As Dr. Flynn notes in 
his testimony and as former Commandant Bob Papp note frequently, 
managing trans-national risks requires pushing borders outward. In 
light of the increased pressure to carry out these missions, and the 
continued pressure to conduct activities further offshore combat 
transnational crime organizations, in other words to push our borders 
out, is the Coast Guard reconsidering its fleet mix to include more 
National Security Cutters which have greater range, capability and 
sophistication?
    Answer. A response was not received at the time of publication.

    Question 3. Current strategic guidance from the DOD and USCG sets 
operations in the context of great power competition. Near-peers and 
regional powers seek to undermine U.S. influence. Weak governance 
exacerbates this trend and enables competitors to manipulate our 
partner nations to our detriment. This harms US interests and increases 
instability. The USCG's soft-power approach allows greater access where 
the Navy would otherwise have challenges, making the USCG a key 
component of U.S. strategy. Is the Coast Guard considering a new fleet 
mix analysis that would include more Fast Response Cutters can be used 
to train and coordinate activities with the Navies and Coast Guards of 
smaller nations?
    Answer. A response was not received at the time of publication.

    Question 4. Current strategic guidance from the DOD and USCG sets 
operations in the context of great power competition. Near-peers and 
regional powers seek to undermine U.S. influence. Weak governance 
exacerbates this trend and enables competitors to manipulate our 
partner nations to our detriment. This harms US interests and increases 
instability. The USCG's soft-power approach allows greater access where 
the Navy would otherwise have challenges, making the USCG a key 
component of U.S. strategy. Is the Coast Guard considering a new fleet 
mix analysis that would include more Fast Response Cutters can be used 
to train and coordinate activities with the Navies and Coast Guards of 
smaller nations? Do you anticipate the Coast Guard having cutters in 
the South China Sea as part of the `tri-service' operations?
    Answer. A response was not received at the time of publication.

    Question 5. In the Commandant's State of the Coast Guard Address, 
Adm. Schultz announced the Coast Guard will continue Operation AIGA 
where Fast Response Cutters are transiting 2,200 miles from Honolulu to 
the island nations in Oceania. Can you give the Committee a sense of 
how operations in 2018 and 2019 went? Has the Coast Guard considered 
homeporting an FRC in American Samoa?
    Answer. A response was not received at the time of publication.

Questions from Hon. Rick Larsen to Vice Admiral Daniel B. Abel, Deputy 
              Commandant for Operations, U.S. Coast Guard

    Question 1. Can you elaborate on the Coast Guard's role in the 
response to the COVID-19 pandemic?
    Answer. A response was not received at the time of publication.

    Question 1a..  Does the U.S. Coast Guard have the resources 
necessary to continue these efforts? If not, what else is required?
    Answer. A response was not received at the time of publication.

    Question 2. Canada's Enhancing Cetacean Habitat and Observation 
(ECHO) Program aims to better understand and mitigate the effects of 
vessels on at-risk Southern Resident Killer Whales throughout the 
southern coast of British Columbia; which has implications in the 
Pacific Northwest. What is the status of the U.S. Coast Guard work with 
the Canadian Government on these efforts?
    Answer. A response was not received at the time of publication.

    Question 2a..  Do you have adequate resources to be an effective 
partner? If not, what additional resources does the Coast Guard need?
    Answer. A response was not received at the time of publication.

    Question 3. As a result of human activity, the Arctic is warming 
faster than any other region. Yet, the Coast Guard's Arctic Strategy 
makes little reference to climate change. This is a contrast with 
previous administrations' recognition of the impacts of climate change 
in the Coast Guard's Arctic Strategy. How will the Coast Guard 
strengthen its international partnerships in the region when our Arctic 
partners are clear-eyed about climate change, but this administration 
is not?
    Answer. A response was not received at the time of publication.

                                    
                       [all]
                       
                       
                       
</pre></body></html>
